<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2004

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Stevens, and Dorgan.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. GALE A. NORTON, SECRETARY OF THE 
            INTERIOR
ACCOMPANIED BY:
        P. LYNN SCARLETT, ASSISTANT SECRETARY, POLICY, MANAGEMENT AND 
            BUDGET
        JOHN D. TREZISE, DIRECTOR OF BUDGET

               OPENING STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. We will call the committee to order.
    Depending on if you are running on daylight savings time, 
or just standard time, which one of the clocks do you want to 
go by?
    We like to serve everybody with 10 o'clock according to one 
and another one.
    Madame Secretary, thank you for coming today as we look at 
the budget for the Interior Department and the appropriations 
for 2004. While I suspect we will get to a number of topics 
today, there is one aspect of the Department's budget request 
that really jumps off the page. One does not have to be an 
accountant to see that we have real problems. I am talking, of 
course, about the Indian trust reform.
    It looks like right now, compared to the 2003 enacted 
level, the Department's request for programs under this 
subcommittee's jurisdiction represents an increase of about 
$370 million. Of that total increase, at least $180 million is 
for trust reform activities of the Office of Special Trustee in 
the Bureau of Indian Affairs. The bulk of that increase is to 
implement the Department's plan for historical accounting. This 
is a remarkable concentration of resources for a single task. I 
think you would have to agree with that.
    Madame Secretary, we applaud the commitment you have made 
to the trust reform; both in dollars, and in terms of your 
personal attention. I know it has occupied far more time than 
you would have imagined, or you would care to even talk about. 
But the litigation has taken its toll on the morale and funds 
of the Department.
    I think all of us here are struggling with the fact that 
increasing resources being devoted to trust reform are 
resources that might otherwise be spent in improving Indian 
schools, maintaining our national parks and public lands, or 
working with landowners to eliminate noxious weeds, and 
conserve the critical wildlife habitat. We know that it will 
take money to fix the trust problem.
    Madame Secretary, I think you would agree that over the 
years this committee has been very responsive to the 
Department's budget request for trust reform. But this year's 
request, particularly in respect to the historical accounting, 
really forces this committee to ask some tough questions.
    On one hand, I do not think any of us want to simply give 
up on historical accounting. I hate to condemn the Federal 
Government to paying billions of dollars of damages that may or 
may not have occurred. On the other hand, can we justify 
spending hundreds of millions of dollars to perform a 
historical accounting that will, undoubtedly, be disputed in 
Indian country?
    What will such an accounting ultimately tell us? And what 
needs in Indian country will go unfulfilled while we go through 
this very expensive process? These are really difficult issues. 
And, Madame Secretary, I suspect the line of questioning this 
morning will go down that trail.
    We also have a problem that I want to raise with you as far 
as increased funding in Indian schools, and the community 
colleges that are located around our many reservations. We 
increased the monies going into that particular program, and to 
higher education in Indian country. As it turns out, by some 
quirk of the pen, I get a decrease in my monies going for 
students in Montana. Rather than being an accross the board 
increase for all Indian schools, all of the funding gets 
distributed elsewhere.

                           PREPARED STATEMENT

    We will look into this. But I will tell you that you can 
look forward to seeing this Senator in that office. I am going 
to find out how they do those figures, because I will not allow 
this to happen. I do not fight for my State, and I do not fight 
for funds for higher education in Indian country, to see it 
become concentrated in one place under some quirk of a rule of 
titles. We are going to look into that and be very critical of 
it. Again, I thank you for coming this morning.
    [The statement follows:]
               Prepared Satement of Senator Conrad Burns
    Welcome Madam Secretary. We appreciate your making the time today 
to appear before the committee in support of your fiscal year 2004 
budget request.
    While I suspect we will get into a number of topics today, there is 
one aspect of the Department's budget request that really jumps off the 
page. I am talking, of course, about Indian trust reform.
    Compared to the fiscal year 2003 enacted level, the Department's 
request for programs under this subcommittee's jurisdiction represents 
an increase of about $370 million. Of that total increase, at least 
$180 million is for trust reform activities in the Office of Special 
Trustee and the Bureau of Indian Affairs. The bulk of that increase is 
to implement the Department's plan for historical accounting. This is a 
remarkable concentration of resources on a single task.
    Madam Secretary, we applaud the commitment you have made to trust 
reform, both in dollars and in terms of your personal attention. I know 
it has occupied far more of your time than you ever imagined, and that 
the litigation has taken a toll on morale within the Department.
    But I think all of us are struggling with the fact that the 
increasing resources being devoted to trust reform are resources that 
might otherwise be spent improving Indian schools, maintaining our 
national parks and public lands, or working with landowners to 
eliminate noxious weeds and conserve critical wildlife habitat.
    We know that it will take money to fix the trust problem. Madam 
Secretary, I think you would agree that over the years this Committee 
has been very responsive to the Department's budget requests for trust 
reform. But this year's request--particularly with respect to 
historical accounting--really forces this committee to ask some tough 
questions.
    On the one hand, I don't think any of us want simply to give up on 
historical accounting. I'd hate to condemn the Federal Government to 
paying billions of dollars in damages that may or may not have 
occurred. On the other hand, can we justify spending hundreds of 
millions of dollars to perform an historical accounting that will 
undoubtedly be disputed in Indian country? What will such an accounting 
ultimately tell us? And what needs in Indian Country will go 
unfulfilled while we go through this very expensive process?
    These are difficult issues, Madam Secretary, and we're anxious to 
hear your thoughts on them today. Certainly we'll have a lot else to 
talk about as well, so I'll conclude my remarks at this time and ask 
Senator Dorgan if he has an opening statement.

    Senator Burns. It is good this morning to recognize my co-
partner on this committee, Senator Dorgan. It is your turn.

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. No, no. Mr. Chairman, I am just trying to 
digest all that you have just said.
    I agree with much of what the chairman has said. And, 
Madame Secretary, let me say, first of all, that I welcome you 
and look forward to working with you on these issues. You know, 
perhaps, that today I will ask you about the United Tribes 
Technical College and the proposal to de-fund that. I will ask 
you about some issues that are not necessarily the purview of 
this subcommittee dealing with NAWS funding and some things, 
some commitments we have made that the President's budget does 
not keep.
    I note some things in the budget that I think give us some 
heart, taking care of parks. The proposal to increase the 
maintenance backlog in national parks, I think, makes a lot of 
sense. I mean, we just cannot keep pushing that off. And a 
number of administrations have done that. I think there are 
some solid recommendations that we will agree on.
    The Senator from Montana described the funding issue with 
respect to Indian schools. And it is not right and not fair, in 
my judgment, to decide we are going to actually decrease the 
money that is available to Indian schools. I know that you 
probably will argue, ``Well, the funding for last year included 
$2 million that was added by the Congress.'' But even at that, 
we are dramatically below the per-student support that we 
provide to other colleges in this country.
    So on that I think you will find that this subcommittee 
feels very strongly about Indian education. And the tribal 
colleges have been a remarkably effective way to allow people 
to escape from poverty, to get educated and move to a payroll, 
get a good job as a result of the training and the education 
they get at tribal colleges.

                           PREPARED STATEMENT

    So we have a number of things to talk about. You run a very 
big agency. It does a lot of different things. Some I think it 
does exceptionally well. Some perhaps can well use some 
improvement. So I look forward to visiting with you about all 
of those issues, Madame Secretary.
    [The statement follows:]
             Prepared Statement of Senator Byron L. Dorgan
    Madame Secretary, thank you for being here this morning to present 
the department's fiscal year 2004 budget request. We understand that 
you have many responsibilities and many demands placed on your time, 
and so we appreciate your willingness to come before this subcommittee 
to answer our questions.
    As you know, the services provided by the Department of the 
Interior are vitally important to our constituents and reach well 
beyond the traditional notion of parks and wildlife refuges. Many North 
Dakotans, for example, rely on the programs of the Bureau of Indian 
Affairs. From education, to community. development, to law enforcement, 
to environmental and resource management, the BIA is critical to the 
Native American population in my state, and I think in the Chairman's 
state, too. Yet, as I look at the administration's budget, I am deeply 
concerned with the way the administration has prioritized its scarce 
resources. While some agencies and programs have received 3 or 4 or 5 
percent increases, total funding for tribal allocations goes up by less 
than I percent and funding for tribal colleges is cut by nearly 9 
percent. These are serious flaws, Madame Secretary.
    Mr. Chairman, despite my reservations, I look forward to hearing 
the Secretary's testimony, and I have no doubt that she will put the 
best face on a rather dismal situation. Nevertheless, as this process 
proceeds, I hope to work with you to rectify what I think are 
fundamental mistakes in the way this budget has been arranged.

    Senator Burns. Thank you, Senator Dorgan.
    Senator Stevens.
    We are blessed with the chairman of the full committee this 
morning.
    Senator Stevens. Not for long.

                OPENING STATEMENT OF SENATOR TED STEVENS

    Madame Secretary, I want to invite you--I heard you are 
interested in going out to the end of the Aleutian chain. I 
would encourage you to do that and tell you that if you do 
that, we will get a plane and take a few other people along 
with us. It is the forgotten place of World War II. More people 
were killed in the Aleutian battle than were killed in the 
Battle of the Coral Sea.
    The battles took place at approximately the same time. Very 
interesting place. We would go to Kiska and Attu and Shemya and 
Dutch Harbor. I think it is a wonderful thing if you show some 
interest there, because there are many people who would like to 
go there, but there are no facilities to do so. We have 
prohibited that because of the withdrawals made by your 
predecessors.
    So I think it would be wonderful if you would just look at 
it. I think the World War II veterans, their families, would be 
very interested to see some means of access to those areas.
    I have a long statement here to make, but let me do this 
for the convenience of the committee and for the time factor 
that you have. My colleague, Lisa Murkowski, Senator Murkowski, 
and I would like to talk to you about the delay in terms of 
land conveyances to both the Alaska natives and the State of 
Alaska. We would like to set a deadline for getting all that 
done, which includes accelerating the surveying.
    We would like to talk to you about the proposed regulations 
of the Park Service concerning commercial use that put 
commercialization within the national parks, as far as those 
people who are recognized to have rights to conduct their 
business activities within the parks. As you know, we have, I 
think, more than 70 percent of the total areas with the 
national parks that are in our State. There are two categories, 
those that were national park areas before 1980 and those after 
1980. The 1980 Act preserved a considerable number of rights 
for Alaska native people and other Alaskans with the additions 
to the national park system that was created by the 1980 Act. 
Those regulations, in our opinion, do not recognize the rights 
that were preserved by the 1980 Act. And I would encourage you 
to review that. My statement, full statement, deals with some 
of those.
    Of basic concern, really, is the restriction of access 
across the parklands. We accept the fact that the pre-1980 
parks and their acreage are not subject to the rights created, 
or really preserved in the 1980 Act for the enormous additions. 
That Act withdrew over 100 million acres of our State. And 
without the rights for access across those lands that were 
preserved, the native lands and the State lands that are beyond 
them become absolutely inaccessible, unless we build some 
really crazy roads that would go north, south, east, and then 
west and back north again. It would be impossible to get money 
for Federal roads of that type. But I would urge you to take a 
look at it with regard to that.
    We have also raised the issue of fires on Federal lands. It 
is an interesting thing. We burned over 7.1 million acres 
nationwide. And there was little attention paid to fires in 
Alaska. When a few hundred thousand acres burned around Montana 
or Colorado around national parks, they flew Alaska 
firefighters down there to fight it.
    We think there has to be some standard made in terms of the 
regions of Alaska that are going to be given fire protection 
because in many instances, those fires rushed across State 
lands and Federal lands. And by the time they reached our 
lands, they were just out of control. I can show you that right 
in Kenai just south of where I live.
    Also, we have a problem with--the spruce bark beetles have 
killed millions of acres of land. And we know that when fire 
starts, the fire goes through the beetle kill area, the dead 
timber first. And that, too, with the dry winter we have had, 
we feel this 2 million acres in the south-central area alone 
have been killed by the birch beetles, most of them on Federal 
land. But there is no action being taken. And I understand, in 
fact, the people I call extreme environmentalists oppose taking 
action on Federal land to remove that dead timber. That dead 
timber jeopardizes half of our population. We are not very big 
in population, but half of the population of Alaska is still 
important. And we are surrounded by that beetle kill.

                           PREPARED STATEMENT

    So, Mr. Chairman, let me put the whole statement in the 
record.
    I will send you a copy, Madame Secretary, and save the rest 
of the time. Let me take the time to congratulate you on what 
you are doing. I think you are a breath of fresh air in being 
willing to listen. I am not sure I always agree with you, but 
you will listen. And we look forward to working with you. And I 
am particularly proud to be a member of this committee so I can 
listen to you.
    Thank you very much.
    [The statement follows:]

               Prepared Statement of Senator Ted Stevens

    Good morning Madam Secretary. An issue of concern to myself and to 
Senator Lisa Murkowski is the pace of the Bureau of Land Management's 
Alaska Land Conveyance Program.
    As you know, the BLM was tasked with completing work on Native 
allotments and land selections mandated by both the Alaska Statehood 
Act of 1959 and the Alaska Native Claims Settlement Act of 1971.
    That task has not been completed.
    This delay has severely impacted the ability of the State of Alaska 
and our Native groups from developing their resources and furthering 
the economic development of the State.
    Language included in the fiscal year 2003 Omnibus Appropriations 
bill directs the Bureau to develop a plan to ensure that allotments and 
conveyances are completed by 2009.
    I would like to get your commitment that the BLM will abide by its 
obligations and complete the land conveyance program by 2009.
    I know that Senator Murkowski is committed to assisting you and the 
BLM in this effort through her membership on the Energy and Natural 
Resources Committee.
    And I commit to providing the BLM the resources it needs to develop 
this plan.
    Another issue is the National Park Service's proposed regulations 
concerning the issuance and administration of commercial use 
authorizations in National Parks.
    As expressed to you in a February 6, 2003 letter from Senator 
Murkowski, Congressman Don Young and myself, these proposed regulations 
fail to comply with the Alaska National Interest Lands Conservation Act 
of 1980. The 1980 law is the controlling authority on public lands in 
Alaska and any Park Service regulations must conform with this law.
    I would like your assurance that the Department and the Park 
Service are committed to working with the State of Alaska, interested 
parties and Alaska Native groups in developing regulations which are 
consistent with the 1980 law.
    Additionally, Denali National Park recently issued its draft 
backcountry management plan.
    I am concerned that some of the alternatives, if implemented, would 
restrict public access to our Parks.
    Access to public lands is an issue that I have struggled to protect 
first as a solicitor your Department, in the Alaska State House, and in 
my 34 years in the Senate.
    I will oppose any plan which imposes unnecessary limits on the 
public's right to visit their Parks.
    I understand that Denali's superintendent and his staff have held 
public hearings and meetings on this management plan.
    I encourage these efforts in order to ensure that the final plan 
balances the protection of our natural resources with the public's 
right to access for recreational, economic and social purposes.
    I am pleased with the proactive stance the administration has taken 
in the area of wildfire prevention and suppression through the healthy 
forests initiative.
    In recent years we have witnessed catastrophic fires which burned 
over 7.1 million acres, affecting several regions in the United States 
including Alaska.
    In Alaska, we have a particular problem with Spruce Bark beetles 
which have decimated spruce forests in the Kenai Peninsula area along 
the Kachemak Bay watershed and the Copper River basin near Wrangell-St. 
Elias National Park and preserve.
    The Spruce Bark beetle problem along with an extremely dry winter 
season in Alaska raises serious concerns for this coming fire season.
    I hope that your efforts in fire prevention and suppression will 
include funding to address Alaska's Spruce Bark beetle problem.
    As you know, we have begun the fiscal year 2004 appropriations 
process. It has come to my attention that the committee does not have 
the most current data for public lands being administered by the 
Department of Interior.
    In order to appropriately allocate scarce resources towards the 
management of our public lands, I request that the Department provide 
the committee with statistics on federally owned land by agency in each 
State and Territory by acreage and percentage of total State area.
    These statistics should also include the total wilderness areas 
within each State.

    Senator Burns. Thank you, Mr. Chairman. Appreciate that, 
and appreciate you dropping by this morning.
    Madame Secretary, again, welcome to the committee. We look 
forward to your statement. Your full statement will be made 
part of the record, if you want to summarize and hit the high 
points of what you would like to tell the committee. Thank you, 
and your guests, for coming this morning.

                SUMMARY STATEMENT OF HON. GALE A. NORTON

    Secretary Norton. Good morning and thank you, Mr. Chairman. 
It is a pleasure to once again address this committee and talk 
with you about our budget for fiscal year 2004. I appreciate 
the opportunity to highlight a number of our initiatives.
    I am accompanied today by Lynn Scarlett, who is our 
Assistant Secretary for Policy, Management and Budget, and John 
Trezise, who is the Department's Budget Director.
    Interior takes pride in its mission to protect and manage 
the Nation's natural resources and cultural heritage, provide 
scientific information about those resources, and honor our 
special responsibilities to American Indians, Alaska Natives, 
and affiliated island communities. Our programs touch the lives 
of individuals across the Nation. How well we fulfill our 
mission influences whether farmers will have water and people 
can turn on the tap, whether our children will enjoy America's 
vistas, places in history, and whether we can hike, bird watch, 
canoe, or hunt and fish in the great American outdoors.
    Our 2004 budget request lays the foundation for us to build 
a legacy of healthy lands and thriving communities. Our request 
for programs under the purview of this subcommittee is $9.8 
billion. This is the largest Presidential request in the 
Department's history. It is a 28 percent increase over the 2000 
budget.
    The Department of the Interior is not quite self-
supporting. We bring in $3 for every $4 in expenditures. The 
Department anticipates that it will collect $7.8 billion in 
revenue in 2004.

                        TRUST REFORM INITIATIVES

    As the chairman noted, our largest increase is in the area 
of trust reform initiatives. Fulfilling our trust 
responsibilities presents a major challenge. The challenge is 
both retrospective and prospective. We inherited a history of 
inadequate management of trust accounts. Our budget lays the 
groundwork for a better future.
    Our budget for Indian trust programs includes $554 million 
for trust operations and reform. Our budget proposal reflects 
new management concepts that grew out of consultation efforts, 
including a reorganization of Interior trust offices to improve 
delivery of services. The budget provides an increase of $183.8 
million for trust programs, which is an increase of nearly 50 
percent over 2003.
    We also have a substantial increase for the Office of the 
Special Trustee, bringing it to $275 million. Within the Office 
of the Special Trustee request is $130 million for the Office 
of Historical Trust Accounting, an increase of $114 million 
over the 2003 level. These funds will provide a major down 
payment toward our plan to complete a historical accounting for 
individual Indian money accounts. We submitted a plan to the 
district court in the Cobell litigation on January 6 that 
outlines the details of how we would do that historical 
accounting.
    Once this accounting is completed, we should be able to 
resolve the disputes about whether the books are off by 
billions of dollars or the much smaller amounts that we expect. 
We hope to improve our management of our Indian trust program 
by consolidating our portfolio. Today we manage interests in 
land that are very tiny, as small as .00002 of an 80-acre tract 
of land. These areas often provide less than $1 a year in 
income to the owners.
    Fractionated interests in individual Indian-allotted land 
continue to expand exponentially as these small fractions pass 
through the generations. The 2004 budget proposes $21 million 
for Indian land consolidation, which is an increase of $13 
million. These funds will enable us to expand our pilot efforts 
to reduce the fractionation of individual land ownership 
interest in a nationwide program. This is only a very small 
part of what will be needed to accomplish a nationwide 
consolidation of these lands. But it gives us an opportunity to 
begin tackling this problem seriously.
    Our budget also lays the foundations for leaving a legacy 
of healthy lands. Our request presents a blueprint for 
fulfilling the President's vision of a new environmentalism of 
citizen stewards and cooperative conservation. Building 
partnerships lies at the heart of this effort. Enduring 
conservation needs many helping hands on the landscape. It 
requires a nation of citizen stewards.

                  COOPERATIVE CONSERVATION INITIATIVE

    Last year we proposed a cooperative conservation 
initiative. This year we are restructuring that program around 
our bureau challenge cost-share programs and cooperative 
conservation grant programs. It will tap into the tremendous 
potential that resides in conservation partnerships. It will 
better enable our land managers to join with Americans across 
the nation in caring for the land. Thousands of landowners and 
organizations remain on waiting lists to participate in our 
cooperative conservation grant programs.
    The 2004 budget includes $113 million for this initiative, 
including an increase of $9 million for the Partners for Fish 
and Wildlife Program. This will allow us to partner with 2,500 
landowners and restore wetlands, uplands, and riparian habitats 
through voluntary conservation agreements.

                          MAINTENANCE BACKLOG

    As Senator Dorgan described, the maintenance backlog in the 
national parks has been a continuing problem. We need to take 
care of these lands. We need to take care of the buildings and 
infrastructure through which we serve the millions of visitors 
to our parks, refuges, and BLM recreation sites. We are 
continuing our commitment to fulfill the President's pledge of 
addressing the maintenance backlog, proposing nearly $706 
million for national park backlogs.
    To date, the National Park Service accomplishments have 
been impressive. But we still have more work to do. A key focus 
will be to improve park roads. Here, too, we are reaching out 
to partners. The Federal Highway Administration has helped us 
review our roads program to see how we can operate it more 
efficiently. And the budget request for maintenance of park 
roads is in the Department of Transportation budget as part of 
the Federal Lands Highway bill.

                           ENERGY DEVELOPMENT

    Lands managed by Interior include working landscapes where 
ranchers, energy partners, and other entrepreneurs help ensure 
that Americans have food, can warm their homes, and have 
shelter for their families. Federally managed lands in onshore 
areas supply about a third of the Nation's oil, natural gas, 
and coal. Our 2004 budget provides $2 million to support the 
development of geothermal energy on public lands, as well as 
increased wind and solar energy opportunities. Our renewable 
energy program budget is more than five times the 2002 amount.
    Our budget also includes increased funding to facilitate 
the development of coal bed natural gas reserves, an abundant 
clean source of energy.

                            INDIAN EDUCATION

    No task is more important to all of our communities than 
educating our children. As we seek to educate our children, the 
President has committed to leave no child behind. At Interior, 
this commitment centers on the children educated at BIA schools 
and educated with Bureau assistance. The 2004 school operations 
request is over $529 million. The children also need safe, 
functional places to learn. Our budget includes a request to 
invest $293 million, including funds to replace at least seven 
decaying and dilapidated school facilities.

                        RECREATION OPPORTUNITIES

    Perhaps the closest connection that Americans have with the 
Department is through recreation opportunities. With almost 500 
million visits to our public lands, Interior provides a wide 
array of recreational opportunities. We are seeing a dramatic 
increase in visitation to our Bureau of Land Management lands 
where we are requesting increased funding to enable BLM to 
continue to provide high quality recreational opportunities.

                         EVERGLADES RESTORATION

    Our Everglades restoration efforts also affirm the power of 
partnerships. As stewards of about one-half of the remaining 
Everglades ecosystem, the Department works with a broad team of 
Federal, State, and local partners. In 2004, the President's 
budget included $112 million for Everglades activities, an 
increase of almost $28 million over the 2003 enacted level.
    Near these Everglades restoration efforts is Pelican 
Island, the Nation's first national wildlife refuge established 
100 years ago. We just celebrated the anniversary of the 
wildlife refuge system with large events there at Pelican 
Island. And our budget builds on last year's historic increases 
for refuges with an increase of nearly $34 million for refuge 
operations and maintenance, bringing the total to $402 million. 
Together, our increases for last year and this year set forth 
an additional $82 million increase in our national wildlife 
refuges.

                       OTHER PROGRAM INITIATIVES

    The fisheries program is also an important Fish and 
Wildlife Service activity. The budget recognizes this and 
includes a $7 million increase for the national fish hatchery 
system.
    The National Resource Challenge is an important component 
of the President's commitment to improving natural resource 
management in our parks. It strengthens the scientific basis of 
knowledge about our national parks. Our budget includes nearly 
$9 million to increase this program.
    The Land and Water Conservation State Grant program is a 
cornerstone of our commitment to involve State governments in 
conservation planning. Our budget requests $160 million for the 
traditional State grant program, which is a $63 million 
increase over the 2003 level enacted by Congress.
    The President's budget includes full funding for the Land 
and Water Conservation Fund at $900 million through a medley of 
programs that emphasize achieving LWCF goals through 
partnerships. We have two central resource protection goals. 
First is to leave a legacy of healthy lands by targeting our 
budget toward caring for the vast lands under our stewardship. 
Second is to extend our conservation and recreation 
achievements through partnerships.
    Through a mix of grant programs, we propose to leverage 
Federal LWCF dollars. These programs engage States, tribes, and 
other partners allowing us to achieve conservation and outdoor 
recreation goals across many lands and with many landowners. 
Through leveraging using conservation easements and other 
agreements, we are able to achieve more conservation than we 
would through fee acquisition alone.

                             WILDLAND FIRE

    There are two problems that we need to address in an 
ongoing way. And one of those that has attracted a lot of 
attention from this committee is the problem of wildland fire. 
Last year over 7 million acres of Federal lands went up in 
flames during catastrophic wildfires. The President's healthy 
forest initiative will help us reduce decades-long buildups of 
underbrush and unnaturally dense forests.
    The budget continues a high level of funding, $186 million, 
to reduce the buildup of brush, dead vegetation, and fire-prone 
invasive species. This will allow us to reduce the risk of 
catastrophic wildfire. The best approach for the long run is in 
building public-private partnerships. Stewardship contracting 
allows us to do that. Thanks to the subcommittee's efforts, we 
now have stewardship contracting authority. We are moving 
forward with getting that in place, working with the Forest 
Service on some joint standards for those programs, and 
beginning to get our contracting going.

                                SECURITY

    We are also investing in greater security for our monuments 
and for public lands that border Mexico and Canada. The 2004 
budget includes $46.8 million for increases in improved 
security to protect our visitors, employees, and resources. 
Over $10 million of this increase will be targeted to public 
lands located along the borders.
    An additional $34 million is slated for site security 
improvements at the Jefferson National Expansion Area in St. 
Louis, Independence National Historic Park in Philadelphia, and 
the Jefferson Memorial and Washington Monument here in 
Washington.

                                SCIENCE

    At the foundation of all Interior's efforts is scientific 
information, and it is the cornerstone of our research 
management activities, providing a basis for decisions about 
resource protection, use, recreation, and community-based 
programs. The 2004 budget proposes a $17 million increase for 
USGS to enhance science support to Interior's bureaus to meet 
their high-priority needs and address other high-priority 
research needs, including invasive species control.
    Thank you very much for the opportunity to discuss our 
budget. We are working to better manage through partnerships. 
Our ability to leave a legacy of healthy lands and thriving 
communities depends on how well we can build those 
partnerships. Our budget sets forth the tools through which we 
can accomplish those goals.
    Thank you.
    [The statement follows:]

                  Prepared Statement of Gale A. Norton

    I am pleased to be here today before the Subcommittee on Interior 
and Related Agencies to discuss with you the fiscal year 2004 budget 
for the Department of the Interior. I appreciate the opportunity to 
highlight a number of important initiatives and to answer questions 
that you might have.
    As an introduction to our 2004 budget request, I'd like to offer 
some observations about the Department's mission. We take a great deal 
of pride in our mission to:
  --Protect and manage the Nation's natural resources and cultural 
        heritage;
  --Provide scientific information about those resources; and
  --Honor our special responsibilities to American Indians, Alaska 
        Natives and affiliated Island Communities.
    Our responsibilities touch the lives of each individual across the 
Nation. How well we fulfill our mission influences:
  --Whether farmers will have water and people can turn on the tap;
  --Whether our children will enjoy America's grand vistas, places, and 
        history;
  --Whether we can hike, bird watch, canoe, or hunt and fish in the 
        great American outdoors; and
  --Whether our landscapes are healthy and our communities are 
        thriving.

                            BUDGET OVERVIEW

    Our 2004 $9.8 billion budget request provides the single clearest 
statement of how we plan to honor these commitments in the upcoming 
year. It lays the foundation for us to build a legacy of healthy lands 
and thriving communities, including:
  --Resource Protection--Reflecting the Department's multiple missions, 
        the budget proposes $2.5 billion to fund programs that improve 
        the health of landscapes, sustain biological communities, and 
        protect cultural resources.
  --Serving Communities--The budget proposal includes $5.0 billion to 
        serve communities through fire protection, generation of 
        scientific information, education investments for American 
        Indians, and through activities to fulfill responsibilities 
        toward American Indians, Alaskan natives, and the Nation's 
        affiliated island communities.
  --Resource Use--Interior lands include many working landscapes where 
        ranchers, energy partners, and other entrepreneurs help 
        maintain thriving American communities and a dynamic economy. 
        The budget includes $728 million to provide access for these 
        important uses.
  --Recreation--$1.4 billion in fiscal year 2004 budget investments 
        will ensure recreational opportunities for all Americans in the 
        network of public lands, parks and refuges that the Department 
        administers.
    In total, the 2004 budget is the largest presidential request in 
the Department's history. The 2004 request includes $9.8 billion for 
programs funded in the Interior and Related Agencies Appropriations 
Act, an increase of $369.8 million or 3.9 percent over the 2003 enacted 
level. Permanent funding that becomes available as a result of existing 
legislation without further action by the Congress will provide an 
additional $3.0 billion, for a total 2004 Interior budget of $12.8 
billion. The Department anticipates that it will collect $7.8 billion 
in receipts in 2004, equivalent to 73 percent of Interior's current 
appropriations request.

                             TRUST PROGRAMS

    Over one-half of our $369.8 million increase for 2004 will fund 
trust reform initiatives. While the overall budget request is 
approximately 3.9 percent over the fiscal year 2003 request, our fiscal 
year 2004 Indian trust budget request is almost 50 percent higher than 
what was included in the 2003 appropriations act.
    Fulfilling our Trust responsibilities remains one of the 
Department's greatest challenges. The Department has responsibility for 
the management of 100,000 leases for individual Indians and Tribes on a 
land trust that encompasses approximately 56 million acres. Leasing, 
use permits, sale revenues, and interest of approximately $226 million 
per year are collected for approximately 230,000 individual Indian 
money accounts, and about $530 million per year are collected for 
approximately 1,400 tribal accounts per year. In addition, the trust 
manages approximately $2.8 billion in tribal funds and $400 million in 
individual Indian funds.
    Interior faces many challenges in reforming the management of its 
Indian trust responsibilities. First, the Department has not been well 
structured to focus on its trust duties. Second, fractionated interests 
in individual Indian allotted land continue to expand exponentially 
with each new generation. Today, there are approximately four million 
owner interests in the 10 million acres of individually owned trust 
lands. These four million interests could expand to 10 million 
interests by 2030 unless an aggressive approach to fractionation is 
taken. There are now single pieces of property with ownership interests 
that are less than 0.000002 of the whole interest.
    Third, there are 230,000 open individual Indian money accounts, the 
majority of which have balances under $100 and annual transactions of 
less than $1,000. Interior maintains thousands of accounts that contain 
less than one dollar, and has a responsibility to provide an accounting 
to all account holders. Unlike most private trusts, the Federal 
Government bears the entire cost of administering the Indian trust. As 
a result, the usual incentives found in the commercial sector for 
reducing the number of accounts do not apply to the Indian trust.
    An increase of $114.1 million for the Office of Historical Trust 
accounting will support the Department's plan to conduct a historical 
accounting for individual Indian money accounts and to account for 
funds in Tribal accounts. On January 6, 2003, the Department presented 
a plan to the District Court in Cobell v. Norton for the historical 
accounting for about 260,000 IIM accounts. The work described in that 
Plan is expected to take five years to complete and is preliminarily 
estimated to cost approximately $335 million. The budget includes 
$130.0 million for these historical accounting activities. Funds also 
will be used to provide for historical accounting activities related to 
tribal accounts.
    The 2004 budget proposes $21.0 million for Indian land 
consolidation, an increase of $13.0 million, to expand pilot efforts to 
reduce the fractionation of individual land ownership interests into a 
nation-wide program. During 2003, we will establish a national program 
office, standardize business practices, and develop a strategic plan to 
guide expansion to more tribal reservations.
    Interior is reorganizing trust functions in BIA and OST. The new 
organization was developed after detailed analysis of the prior 
organization and a year-long consultation process with tribal leaders. 
In one of the most extensive consultation efforts ever undertaken by 
the senior management level at the Department on any issue relating to 
Indian Country, over 45 meetings with tribal leaders provided detailed 
findings and recommendations. The new organization reflects a synthesis 
of the views heard during the consultation process. It will meet 
fiduciary trust responsibilities, be more accountable at every level, 
and operate with people trained in the principles of trust management. 
The 2004 budget provides an increase of $15.0 million to support the 
new organization, which together with base funding available in BIA and 
OST will provide resources needed for the new organization in 2004.
    The proposed $183.8 million increase for trust management reforms 
includes funding to help rebuild Bureau of Indian Affairs information 
technology infrastructure to support trust and non-trust programs. The 
BIA's information infrastructure and security use outmoded hardware and 
software that do not meet lifecycle management and systems architecture 
principles, and do not comply with the security requirements of OMB 
Circular A-130 and the Government Information Security Results Act. The 
Department requests IT funding for the significant new investments 
needed to address these challenges. The 2004 budget includes increases 
of $29.6 million for a ground-up rebuilding of the BIA IT 
infrastructure to support trust, as well as non-trust programs, and 
$2.5 million for Interior-wide IT security. The proposed rebuilding 
will fit within the enterprise architecture and includes full business 
cases for proposed investments.
    The 2004 budget also proposes an increase of $4.5 million to 
accelerate a new strategy to administer, manage, search, retrieve, and 
store trust records. Reform efforts to date have improved records 
collection and security. However, recent Interior reviews have resulted 
in a reassessment of the resource requirements needed to establish 
proper records retention schedules, establish and implement record 
keeping requirements, safeguard records, implement and maintain 
training programs, and meet records-retrieval needs in an effective and 
cost-efficient way.

                  COOPERATIVE CONSERVATION INITIATIVE

    The 2004 budget lays the foundation for a legacy of healthy lands, 
presenting a blueprint for fulfilling the President's vision of a new 
environmentalism of citizen stewards and cooperative conservation. 
Building partnerships lies at the heart of this effort. Last year's 
budget proposed a Cooperative Conservation Initiative. This year, our 
budget again includes a Cooperative Conservation Initiative, structured 
around bureau Challenge Cost Share programs and other existing 
cooperative conservation grant programs.
    The Cooperative Conservation Initiative, funded at $113.2 million, 
will empower citizen stewards to conserve and protect natural 
resources, while also achieving important community and economic goals. 
The Initiative builds on existing conservation partnership programs and 
will provide new and expanded opportunities for landowners, land 
managers, and others to participate in projects that foster innovation 
and create incentives for stewardship. Our budget also provides funds 
for a public lands volunteers program.
    The 2004 CCI request builds upon Interior's long history of working 
collaboratively with others. It builds on existing conservation 
partnership programs, including the challenge cost share programs of 
the Bureau of Land Management, Fish and Wildlife Service, and National 
Park Service, as well as FWS's Partners for Fish and Wildlife program, 
Coastal program and Migratory Bird Joint Venture program. This 
initiative also funds a program of volunteers to increase public 
awareness of, and appreciation for, natural and cultural resource 
protection.
    The CCI request includes a $9.1 million increase for the Partners 
for Fish and Wildlife program, the largest increase ever provided to 
this program. The Fish and Wildlife Service will partner with 2,500 
additional landowners on the program's waiting list. These new 
partnerships will restore an additional 19,298 acres of wetlands; 
83,601 acres of native grasslands, forest and other uplands; and 241 
miles of riparian and in-stream habitat over 2003 levels.

                          CONSERVATION GRANTS

    The Private Stewardship grants and the Landowner Incentive Program 
recognize continuing opportunities for conservation of endangered and 
threatened species through partnerships with private landowners. The 
budget request includes $50.0 million for Private Stewardship grants 
and the Landowner Incentive program. Interest in the State portion of 
the program is high, with over 80 grant requests totaling $61.0 million 
for the program's first year.
    The 2004 budget request includes a comprehensive, partnership 
approach to meeting the President's commitment for fully funding the 
Land and Water Conservation Fund. The 2004 LWCF program includes $662.4 
million for the Department. It emphasizes conservation partnerships 
with States, Tribes, local communities, and private citizens, including 
a strong State grant program, and reduced Federal land acquisition. 
This proposal recognizes the costs of adding to the significant land 
holdings that are already managed by the Department and our commitment 
to take better care of these lands. It also recognizes the value and 
cost-effectiveness of partnerships. We can accomplish our conservation 
goals by conserving endangered and at risk species through conservation 
easements, working with private landowners to enhance habitat for 
endangered and at risk species, and other innovative partnership 
approaches.

                   CONSERVING WILDLIFE AND FISHERIES

    March 14, 2003 marks a milestone in the history of wildlife 
conservation in America-the centennial anniversary of the national 
wildlife refuge system. Reflecting the importance of this event and the 
record of conservation established through this unique system of lands 
and resources, the 2004 budget builds on last year's historic $48.4 
million budget increase for the national wildlife refuge system by 
requesting a total of $402.0 million for refuge operations and 
maintenance, an increase of $33.6 million over 2003 appropriation 
levels. The total budget request for the Fish and Wildlife Service is 
$1.3 billion.
    The Fish and Wildlife Service fisheries program has played a vital 
role in conserving and managing fish and other aquatic resources. The 
2004 budget enhances the Federal contribution to aquatic resource 
conservation partnerships, by providing $103.6 million for the FWS 
fisheries program. The request includes an $3.9 million increase for 
operation and maintenance of the national fish hatchery system's 
hatcheries, fish health centers, and fish technology centers. Also 
included is a $1.0 million increase to combat aquatic nuisance species, 
part of the larger, coordinated interdepartmental effort discussed 
below.

                           OTHER PARTNERSHIPS

    As stated earlier, the 2004 budget is based on a vision of 
partnerships and leaving a legacy of healthy lands and thriving 
communities resulting from efforts to work together across landscapes 
and across communities. The 2004 budget sets forth the tools through 
which these partnerships can flourish and leave a legacy of healthy 
lands and thriving communities
    The Department's parks, refuges, and public lands host nearly 500 
million visitors a year and provide access for economic uses, 
activities that fuel the economic engines for communities adjacent to 
our Federal lands. Recognizing that the Department's decisions can 
greatly impact these gateway communities, the Department is working in 
partnership with the people who live on the private lands that border 
these areas and developing collaborative approaches to address local 
issues.
    Everglades.--The Everglades restoration effort also affirms the 
power of partnerships. As stewards of about one-half of the remaining 
Everglades ecosystem, the Interior Department works with a broad team 
of Federal, State and local partners. In 2004, the President's budget 
includes $112.3 million for Interior Everglades activities, an increase 
of $27.8 million above 2003 enacted appropriations. The request 
includes $40.0 million to protect the Big Cypress National Preserve by 
acquiring the Collier family's mineral right holdings.
    Exemplifying the partnership approach to this restoration effort, 
the Department is building stronger coalitions to implement the 
restoration program, including:
  --Forming an advisory committee for public input to land managers in 
        South Florida on a wide range of issues;
  --Providing scientific expertise to the State and the U.S. Army Corps 
        of Engineers to meet the objectives of the Comprehensive 
        Everglades Restoration Plan; and
  --Taking steps to ensure that appropriate quantities of water are 
        distributed at the right times and in the right places to 
        restore the unique Everglades ecosystem.
    Invasive Species.--The Department is participating in an 
interagency performance budget to promote invasive species management 
that is being coordinated by the National Invasive Species Council. The 
2004 budget proposes $57.5 million for the Department's portion of this 
interagency effort.
    At this funding level, Interior will participate in the control and 
management of tamarisk and giant salvinia in the southwest; conduct 
ballast water research; control and eradicate nutria in the Chesapeake 
Bay and in Louisiana; plan early detection and rapid response to 
eradicate outbreaks of sudden oak death in eastern hardwood forests of 
the central Appalachian Mountains; and develop a marine invasive 
species early detection warning system.
    Abandoned Mine Reclamation and Clean Streams.--Through partnerships 
the Office of Surface Mining is restoring streams impacted by coal 
mining. Its Clean Streams program involves State and local groups to 
enhance miles of riparian areas. The President's budget request 
includes $281.2 million for State and Federal programs to protect the 
environment during coal mining, assure prompt reclamation after mining, 
and clean up abandoned mine lands. The request will enable OSM to 
continue directly administering Federal regulatory and reclamation 
programs in States that do not operate their own surface mining 
programs as well as on Federal and Indian lands, and to reclaim 6,900 
acres of disturbed land and other hazards that threaten human health 
and welfare and environmental quality.
    Payment of Lieu of Taxes.--The President's proposal calls for 
$200.0 million for Payments in Lieu of Taxes, to compensate States for 
Federal lands that cannot be taxed by local governments. The 2004 
budget proposes to move the program from the Bureau of Land Management 
to the Departmental Management account to reflect the breadth of this 
program. The lands on which the payments are made are administered by 
the NPS, FWS, and USDA Forest Service, as well as by the Bureau of Land 
Management.

                   WILDLAND FIRE AND HEALTHY FORESTS

    Building a legacy of healthy lands and thriving communities means 
applying a healing hand to the landscape. The Department is advancing 
the President's Healthy Forests Initiative to reduce decades-long 
build-ups of underbrush and unnaturally dense forests.
    The budget proposes $698.7 million for wildfire prevention and 
suppression and Healthy Forest initiatives in fiscal year 2004. This is 
a $48.5 million, or 7.5 percent increase over last year's budget 
proposal. The request includes continued funding for a robust fuels 
treatment program at $186.2 million, 400 percent above spending in 
2000. At this funding level, the Department will treat 307,000 high 
priority acres in the wildland-urban interface and an additional 
768,000 acres that are not in the wildland-urban interface.
    The Department is also taking a number of steps to improve the 
productivity and performance of the fuels program that will help the 
Department's firefighting bureaus take maximum advantage of the 
opportunity for fuels treatment projects at the beginning of the fiscal 
year when weather and workload conditions for fuels treatments are 
optimal. The Department is accelerating project planning and selection, 
issuing policy guidance and proposed legislative language designed to 
facilitate and expand contracting in the fuels program, and issuing 
policy guidance to expedite the budget allocation process for the fuels 
program and individual projects.
    The fuels treatment program is key to restoring forests and 
rangelands to long-term health and preventing damage caused by 
catastrophic wildfires. One approach to improving forest health that 
holds promise is stewardship contracting. Stewardship contracts allow 
the private sector, non-profit organizations, and local communities to 
productively use materials generated from forest thinning.
    The 2004 budget proposal also calls for $282.7 million for fire 
preparedness, including increased funding for aviation contract costs. 
The fire suppression request of $195.3 million reflects a $36.0 million 
increase to fund suppression operations at the revised 10-year average. 
This funding level will provide resources to respond to an ``average'' 
fire year without having to rely on emergency borrowing that can be 
disruptive to other Interior programs. The Department is also working 
to develop new and improved current cost control strategies for 
suppression. The budget also includes $24.5 million for rehabilitating 
burned areas. Timely stabilization and rehabilitation of severely 
burned areas are critical to prevent further damage due to erosion, 
loss of soil nutrients, and the introduction and spread of invasive 
species. The budget also continues funding for Rural Fire Assistance at 
$10.0 million. Frequently, local firefighting departments are the first 
responders to wildland fires on public lands and play a vital role in 
preventing fires from escaping initial attack and becoming 
exponentially more expensive to suppress. In 2002, the Department 
assisted 5,349 rural and volunteer fire departments through grants, 
technical assistance, training, supplies, equipment, and public 
education support.

               HELPING TO MEET THE NATION'S ENERGY NEEDS

    Interior plays a central role in meeting the Nation's energy needs. 
Conservation, renewable energy, and traditional energy sources all play 
an intertwined role in helping the Nation meet these needs. The budget 
supports the President's and the Department's goal for increasing 
domestic energy supplies from a variety of sources, in an 
environmentally acceptable manner, with a special emphasis on 
developing renewable energy sources on Federal lands.
    The 2004 budget request includes an increase of $444,000 for 
activities on the North Slope, for a total of $8.4 million. Funding 
will support planning for sales in the National Petroleum Reserve-
Alaska, and, if authorized, the Arctic National Wildlife Refuge. 
Congressional authorization will be required for a lease sale to be 
conducted in ANWR.
    The budget requests an increase of $2.0 million for BLM to 
strengthen inspection and enforcement activities, targeted primarily to 
the Powder River and San Juan basins. The budget also proposes a 
$500,000 increase to expand resource monitoring to improve assessment 
of the cumulative impacts of oil and gas development, especially on 
cultural resources and species at risk.
    The 2004 budget includes $2.0 million for renewable energy 
resources. This includes an increase of $100,000 over 2003 enacted 
appropriations to support the development of geothermal, wind, and 
solar energy on public land. This is more than five times the 2002 
funding level for these programs.
    The Outer Continental Shelf is projected to produce over 25 percent 
of both the Nation's oil and natural gas in 2003. The Minerals 
Management Service is the primary steward of the mineral resources on 
the OCS. The MMS appropriations request of $171.3 million includes an 
increase of $1.6 million to meet increased workload brought about by 
the demand for Outer Continental Shelf program services in the Gulf of 
Mexico. The 2004 budget includes a total of $11.6 million, an increase 
of $2.9 million over 2003 funding levels for MMS to employ innovative 
business processes and advances in electronic technology in the 
offshore program. The budget also includes an increase of $300,000 to 
investigate the energy resource potential found in methane hydrate 
formations. The MMS will also invest an additional $3.0 million to 
operate and maintain its minerals revenue management and royalty-in-
kind systems.
    The 2004 BIA request includes a $2.0 million increase for grants to 
Tribes to evaluate mineral resource potential on tribal trust and 
restricted lands. The request also includes $1.0 million to help Tribes 
expedite the development of tribal regulations governing mineral 
leasing and permitting, and rights-of-way of tribal lands required 
under the Energy Policy Act, 2002.

                          TAKING CARE OF PARKS

    Complementing the Department's cooperative conservation commitments 
is a continued investment in taking care of National Parks. The 
President's budget proposes a $2.4 billion budget for the National Park 
Service, an increase of $131.4 million above 2003 appropriations.
    This budget continues the Department's commitment to fulfill the 
President's pledge of addressing the maintenance backlog in National 
Parks, proposing $705.8 million this year toward this effort, an 
increase of $54.1 million, nearly an eight percent increase over 2003. 
The budget includes an increase of $16.3 million for cyclic 
maintenance. This increase will provide additional funds for regular 
maintenance activities and will help the NPS keep pace with its 
maintenance needs and prevent additional projects from becoming 
deferred. It also includes an additional $16.7 million for the repair 
and rehabilitation program and a $4.7 million increase for 
comprehensive condition assessments at parks. Data collected through 
the condition assessments will be used in 2004 to evaluate progress in 
eliminating the deferred maintenance backlog, as measured by a facility 
condition index.
    To date, our accomplishments are impressive. For example, the Many 
Glacier Hotel at Glacier National Park was built in 1914. A highly 
recognized National Landmark, this facility signifies an important 
period in the development of the National Park Service. Due to the 
harsh climate and insufficient maintenance in the past, this important 
landmark had deteriorated to a stage where emergency stabilization was 
necessary. The Department is in the process of stabilizing this 
important facility.
    But we still have more work to do. A key focus in the 2004 budget 
will be to improve park roads. Here, too, the Department is reaching 
out to partners. A signed memorandum of agreement with the Federal 
Highway Administration will help us achieve our road maintenance goals 
efficiently. The Department of Transportation's 2004 budget proposes 
$300.0 million in 2004 for Park road repair as part of the 
reauthorization of TEA-21, bringing the total park maintenance budget 
to over $1 billion.
    In the National Park Service, the Natural Resource Challenge helps 
Park managers improve resource management by strengthening the 
scientific base of knowledge about park resources. Our budget proposes 
$76.1 million, an $9.0 million increase over 2003, for the program. 
This increase will provide a three-year cumulative total increase of 
over $104 million above the 2001 level. The Natural Resource Challenge 
is an integral component of President Bush's ongoing commitment to 
improving natural resource management in Parks.

                            INDIAN EDUCATION

    No task is more important to the American community than educating 
its children. In education, the President has committed to ``leave no 
child behind.'' At Interior, this commitment centers on the 48,000 
children educated at schools operated by the Bureau of Indian Affairs 
or by Tribes under BIA grants or contracts.
    The budget request for Indian education continues the President's 
commitment with a robust $528.5 million school operations budget 
request, including funding for teacher pay increases. The budget 
includes $3.0 million to establish a separate fund for new 
administrative cost grants to encourage more Tribes to exercise their 
authority to operate BIA schools by providing full funding for start-up 
costs for the first year of tribal operation of bureau-operated 
schools.
    Children deserve safe, functional places to learn. The 2004 budget 
invests $292.6 million in school facilities, including funds to replace 
at least seven high priority school facilities and to repair schools 
identified in the Indian school maintenance backlog. The President's 
goal is to eliminate the backlog by 2006.

                               RECREATION

    With almost 500 million visits each year to the Department's lands, 
Interior provides a wide array of recreational opportunities, including 
fishing, hiking, hunting, camping, and wildlife viewing. Public lands 
managed by the Bureau of Land Management provide recreational venues 
for a growing population in the West, hosting over 60 million visitors 
annually.
    The 2004 budget requests $48.7 million to enable the Bureau of Land 
Management to continue to provide quality recreational opportunities. 
BLM will address transportation and access needs and challenges, expand 
interpretive and other visitor services, and support greater outreach 
and consultation efforts to help resolve user conflicts in the face of 
growing visitation.
    In recreation as in conservation, partnering is central to achieve 
our recreation goals. The Department depends on the contributions of 
200,000 volunteers, almost three times Interior's Federal workforce, to 
help address resource protection and public recreation needs. Over 
126,000 volunteers work in parks, the rest work in refuges, public 
lands, and other Interior sites across the country. In 2004 volunteers 
will assist NPS staff with important park projects including the Lewis 
and Clark bicentennial, the Powered Flight centennial, and the 
Jamestown 400th anniversary. The budget request proposes to increase 
funding by $1.5 million for partnership efforts and volunteer 
recruitment and training. A $1.0 million increase is aimed at 
bolstering volunteer participation and improving park capacity to 
supervise, train, and reward volunteers. An increase of $500,000 will 
allow NPS to establish full time volunteer coordinators to manage an 
expanding program.
    The Department's partnerships include working with States. Today, 
the LWCF State grant program is a cornerstone of the Secretary's 
commitment to involve State governments in conservation and recreation 
activities. This program, enacted in 1965, helps States develop and 
maintain high quality recreation areas and stimulate non-Federal 
investments in the protection and maintenance of recreation resources 
across the United States. Reflecting the President's goals, the 
Interior LWCF program seeks to promote cooperative alliances, leave 
land on State tax roles, and achieve conservation goals by emphasizing 
innovative alternatives to fee simple title purchases, such as 
conservation easements and land exchanges. This emphasis also enables 
Interior land management agencies to focus more funds on caring for 
lands already under their management.
    The President's budget fully funds the Land and Water Conservation 
Fund at $900.7 million. The LWCF proposal calls for $160.0 million in 
State grants, an increase of $62.6 million over the 2003 funding level 
enacted by the Congress.

                      LAW ENFORCEMENT AND SECURITY

    The budget requests increases for Interior's law enforcement and 
security programs. The funding would be used to hire additional law 
enforcement officers, for law enforcement agreements with States and 
localities, additional training, and physical hardening of key visitor 
sites, all of which will improve security operations Department-wide. 
The increase of $46.8 million is earmarked for strengthening law 
enforcement and security operations at Interior refuges, parks, and 
public lands, including along the U.S. borders with Mexico and Canada. 
Included within this increase is funding for site security improvements 
at the Jefferson National Expansion Area in St. Louis, Independence 
National Historical Park in Philadelphia, and the Jefferson Memorial 
and Washington Monument in Washington, D.C.

                                SCIENCE

    All of the Department's efforts require good information. 
Scientific information is the cornerstone for Interior's natural 
resource management activities, providing a basis for making decisions 
about resource protection, resource use, recreation, and community-
based programs. The USGS has the principle responsibility within 
Interior to provide its bureaus the earth and natural science 
information and research necessary to manage the Nation's natural 
resources.
    The President's 2004 budget proposes $895.5 million for the USGS. 
The budget includes $17.1 million in new program increases above the 
2003 conference level for high priority research needs, including 
invasive species control and management and increased capability to 
address science needs for Interior bureaus.

                               CONCLUSION

    The Interior Department's responsibilities lie at the confluence of 
people, land, and water. The 2004 budget funds programs that support 
our broad and multiple missions. Leaving a legacy of healthy lands and 
thriving communities requires resources, creativity, and, above all, 
collaboration. The 2004 budget supports this vision of forging 
partnerships.
    This concludes my overview of the 2004 budget proposal for the 
Department of the Interior and my written statement. I will be happy to 
answer any questions that you may have.

                      HISTORICAL TRUST ACCOUNTING

    Senator Burns. Thank you, Madame Secretary.
    We have spent numerous occasions discussing your 
inheritance of one of the most frustrating court cases in 
recent memory. However, the recently released summary of the 
Ernst and Young analysis of the five lead plaintiffs' accounts 
raises questions about whether historical accounting is a wise 
use of Federal resources. If you could, would you please give 
us a quick update on the court's actions over the past few 
months, and how those actions impact your 2004 request?
    Secretary Norton. We submitted plans to the courts in 
January that set forth how we would go about doing an 
historical accounting and how we would improve the overall 
management of our trust programs to address some specific 
deficiencies identified by the court. We are preparing now for 
a trial that is set to occur starting in May that will cover 
those plans. The court will in essence be looking both at our 
plan and the plans that were submitted by the plaintiffs and 
evaluating those.
    We also have, ongoing, an appeal to the Federal Court of 
Appeals from the decision that held myself and the Assistant 
Secretary for Indian Affairs, Neil McCaleb, in contempt of 
court. The oral argument on that will take place on April 24.
    Senator Burns. What message should this committee take from 
the Ernst and Young report?
    Secretary Norton. I think it helps illustrate the 
difficulty that we have in trying to resolve these issues. On 
the one hand, we have the plaintiffs' attorneys, who are 
estimating the damages that the Department and the Federal 
Government would owe to individual Indian account holders at 
$137 billion. On the other hand, the Ernst and Young report, 
which looks at the accounts of specified individuals, found 
that there was, in reviewing approximately 2,900 transactions, 
a $60 account error. So we have a wide divergence of opinion 
about the accuracy of the books that were handled by the 
Department of the Interior over time.
    In essence, what we are doing through the historical 
accounting is verifying our bank ledgers. We have the account 
ledgers that say how much was given to individuals, how much 
was deposited, and what was received. The question is trying to 
find external documents that verify those account records. The 
court has asked us to find that external documentation.
    We submitted to you all a plan for doing a complete 
historical accounting and finding all of the documents that 
would support those transactions. That basically would have 
cost about $2.4 billion to do all of that accounting. We then 
revised that in the report that we gave to you, and the basis 
for our budget is to use statistical sampling on smaller 
transactions, as opposed to going through transaction by 
transaction.
    We will still look at all of the transactions over $5,000 
individually and in certain other categories of transactions 
and account for those in a detailed way. The others we would 
propose to use statistical sampling.
    Senator Burns. Do you see an end to this?
    Secretary Norton. Our plan would basically have us complete 
all of that accounting in 5 years. That would basically be a 
$335 million project over that time to complete that 
accounting. At that point, we would have what we view as a 
definitive answer as to how much those books might be off.
    Senator Burns. Looking at it from this perspective, we do 
not see an end to it. Either that, or we are not getting the 
right signals, or I am not smart enough to figure it out. 
Probably a combination of the two. It seems to me that this is 
something we do not know how we got into, and we have had very 
few answers on how to get out of it, until you came into 
office. I congratulate you on your commitment to straighten 
this out. I hope you have enough time to see it through to its 
completion.

                             INDIAN SCHOOLS

    I want to ask you about the situation with the Indian 
schools. I know the President cut some funds out of Indian 
education. Then the subcommittee put them back in, especially 
this past year, we put $1.7 million back into Indian education. 
Can I get an answer to why--the enacted 2003 level was 
functionally $1.7 million over the 2002 level after an across-
the-board reduction? That sounds confusing, but I guess up here 
people can walk their way through that.
    Despite the increase, Title I TTCs are faced with an $8-
per-student reduction. The BIA split the reduction as follows: 
Approximately 23 percent of the total increase allocated to the 
Dine College due to Dine stance as a Title II, which is a 
boarding school; this amounted to an increase of approximately 
$60 per student. The Title I schools also sought an enrollment 
increase of approximately 300 Indian students. As a result, the 
remaining, to be put into the formula for Title I schools, 
resulted in a decrease of $8 per student in fiscal year 2003.
    I would like to know how we come up with those kinds of 
figures. Can anyone respond to that? John, can you enlighten 
us?

                      DIFFERENT FUNDING CATEGORIES

    Mr. Trezise. Senator Burns, your figures are correct. This 
is a situation that arises from the authorizing legislation 
which authorizes two categories of colleges, which are funded 
on the basis of different formulas. In addition to the colleges 
authorized in the TCC Act, we have two colleges which have 
traditionally been funded by the Congress outside of the Act, 
which are funded on yet other basis. So we have four different 
funding levels on a per-student basis.
    This is a situation, I think, that does warrant some 
consideration. Specifically with respect to 2003, though, your 
figures are correct. But I would point out that of the increase 
of $1.7 million over the 2003 enacted level, or $3.6 million 
over the President's budget, 77 percent was devoted to the 
Title I colleges. This is an increase over the President's 
budget of about $2.7 to $2.8 million.
    The per-student funding went down, despite that increase, 
because the number of students which we were expecting, which 
we actually have in school this year, in 2003, is higher than 
the student level in 2002.
    Senator Burns. It sounds like we are going to have to 
change the way we fund our colleges. I do not like the idea of 
being discriminatory one against the other. And when we try to 
do the overall good for everybody, it seems like we have not 
attained that degree of fairness.
    Senator Dorgan.
    Secretary Norton. Mr. Chairman, anticipating a question 
from Senator Dorgan, since this is all on the same topic, we 
have had some discussions previously as to the United Tribes 
Technical College. I have asked the Assistant Secretary for 
Indian Affairs, the acting Assistant Secretary, to work with 
you all. It may be appropriate to bring that college into the 
same funding category, which it is my understanding would 
require a statutory change, as well as the Crown Point 
Institute of Technology, which is the other one that has 
usually been independently funded.
    I am not familiar enough with the rest of the differences 
in the funding, but this might make sense as a time to try to 
wrap all of that into an examination of the authorizing basis 
for those appropriations.
    Senator Burns. I think you have a point. I am not versed 
enough in exactly how those stages are funded, or in what 
categories they fall. So I will have to do a little looking 
into this. It seems unfair that funds dedicated to community 
colleges found on reservations are increased or restored. And 
then what we receive per student decreases.
    I have an idea that we might have been remiss in not 
identifying where those funds were to go. So it seems that the 
``haves'' got, and the ``have nots'' got less. I find that 
inherently unfair.
    Senator Dorgan.

                            INDIAN EDUCATION

    Senator Dorgan. Mr. Chairman, thank you very much.
    Again, Secretary Norton, thank you for being here. Let me 
start on the point that the chairman finished with; that is, 
Indian education. First of all, I think tribal colleges are 
remarkably successful. Let me tell you about--since we take a 
lot away from these hearings, I want you to take something away 
in terms of an anecdotal story about Indian colleges.
    There is a young woman in North Dakota named Loretta that I 
have known for a good many years. Loretta Delong is her name. 
And she lived in a two-room log house on an Indian reservation. 
She stuttered. She was painfully shy, wore hand-me-down 
clothes. She was called a savage at school. And she wondered, 
you know, what it would take to be noticed. She reached the 
seventh grade. She got into all kinds of trouble. She dropped 
out of school, had a child, was involved in substance abuse. 
And she is now a Ph.D. When I see Loretta, I call her Dr. 
Delong.
    She got her life turned around and is a remarkable 
contributor to the Indian reservation on the Turtle Mountain 
Reservation. And it happened because of tribal colleges, the 
availability and opportunity for people to go to college and 
have their extended family be involved in childcare and all the 
things that allow somebody to get up and out and do something 
for themselves.
    There are many other stories. I simply mention Loretta 
because she is happy for me to do that, and I am proud of what 
she has done.

                        TRIBAL COLLEGES FUNDING

    It just makes no sense to me to be reducing the funding for 
tribal colleges at a time when we are already substantially 
short of the support per student that exists in the rest of the 
country. The Tribal College Act authorizes funding of $6,000 
per full-time Indian student. It has currently funded about 
$3,900. That is 45 percent below the $7,180 spent by the non-
Indian community colleges. So these colleges are already 
underfunded. And this is just a recommendation that we will 
have to change, I believe.
    With respect to your point about Crown Point and United 
Tribes, it would not make much sense to me to put them into the 
rest of the tribal colleges, if the other batch is already 
underfunded. For almost a quarter of a century, we have 
provided funding for Crown Point and United Tribes, which are 
unique tribal technical colleges that serve, in the case of 
United Tribes, dozens of States' American Indian populations.
    So, I mean, the suggestion that we should put them in with 
the rest of the tribal colleges does not make sense. What is 
suggested here in the budget is let us de-fund United Tribes 
and then let us cut the other tribal colleges. My guess is you 
will say: ``Well, this is a matter of choice and priorities.'' 
But would you not agree that this should be a priority, tribal 
college funding should and must be a priority, and cutting them 
at this point, when they are so far below the support that is 
given to non-Indian community colleges, that that is not a fair 
recommendation?
    Secretary Norton. Senator, if I can point out a few things. 
First of all, the tribal college funding has increased by over 
62 percent since 1993, while the enrollment has increased by 11 
percent. So there is certainly considerably more funding than 
there has been in the past. The funding for tribal colleges was 
increased by $3.6 million in the 2003 Appropriations Act, but 
our budget was formulated before that final congressional 
action. So it does not reflect that 2003 increase.
    Senator Dorgan. Would you support that increase? If the 
budget were formulated now, do you think that would be 
included? And would you support that?
    Secretary Norton. We have a couple of different things 
going on here. One is the base level of funding for that. We 
are certainly interested in working with you all for next year 
on improvements needed in our funding structure, to work on 
that approach with you.
    The other issue has been those items that have been 
earmarked from outside any authorization. That causes problems 
for us and will continue to cause problems, as I have said. It 
is much more difficult for us to fund something that does not 
have any standards, does not have a program, is simply an add-
on to our other programs. There is no way of evaluating whether 
that is treating fairly those particular colleges in comparison 
with other colleges.
    Senator Dorgan. Yes, but you----
    Secretary Norton. We would certainly like to see something, 
and we would be very happy to work with you on something that 
would look at those on a more across-the-board kind of basis.
    Senator Dorgan. But I do not understand that. These are--
for example, United Tribes Technical College is easily 
accredited, identified by all as a remarkable institution, 
visited by yourself and by the head of the Bureau of Indian 
Affairs. I mean, I have never heard anyone suggest this is not 
worth funding. So I understand your point about ``Let's make 
sure that we are always funding things that work,'' but there 
has never been a question that I am aware of that this is not, 
both this and Crown Point are not, good educational 
institutions. So de-funding them just makes no sense to me.
    Secretary Norton. It is a question of trying to prioritize 
our funding. And, you know, we have increased funding for 
elementary and secondary schools. We have a $16 million 
increase enacted over there. These are good programs. We do 
continue to support the funding of the tribal college programs. 
We have had to make some tough choices this year with, as you 
all have mentioned, the increased funding that we needed for 
historical accounting for Indian trust programs.

                      WILD HORSE AND BURRO PROGRAM

    Senator Dorgan. But you know what? In terms of priorities, 
I was just looking here, we have $31 million for the wild horse 
and burro management program, including Adopt-a-Horse. So $31 
million for that and $39 million for all the tribal colleges in 
America? I mean, I am not sure I understand that.
    In terms of choices, I want us to make good choices and 
right choices. And it is not the right choice to de-fund United 
Tribes Technical College. And it is not the right choice to 
come in with a funding recommendation that is below what the 
tribal colleges received last year. There is bipartisan 
support. Senator Domenici is not here, but you know he would be 
more aggressive than I am even on these issues. And I know the 
chairman feels the same way.
    So I understand your point about choices, but it is very 
important to make the right choices. And I think Indian 
education is very important.
    Senator Burns. Do you want to switch that money from the 
burros over to schools?
    Senator Dorgan. Well, I tell you what I am going to do. I 
did not even know about the program until I was reading last 
evening. I am trying to go through. This is a big agency, as I 
said. You have quite a job, a lot of things. And I was not 
aware that the wild horse--I knew we had a wild horse and burro 
management. I also knew that we had an Adopt-a-Horse program. 
But I did not know we spent $31 million on it. And I do not 
know how many horses there are, but I am going to divide the 
number of horses into the $31 million to find out how much per 
horse we are spending. Because I used to raise horses. My dad 
used to raise horses. And, in fact, the program in here talking 
about gentling horses, I do not think anybody in Montana has 
ever uttered that, nor have we in North Dakota. You do not 
gentle horses; you break horses. I would like to know what they 
are spending on gentling horses, because we have some young men 
and women in North Dakota who will do that pretty cheaply and 
do it pretty well. And I suppose in Montana you have some as 
well.
    But at any rate, my point is not to--I love horses. I have 
not been around burros much, so I cannot profess any love for 
burros. But I do want to find out how much per animal we are 
spending here and how we are spending----
    Senator Burns. I saw one on your jacket the other day.
    Senator Dorgan. Is that right?
    They call it donkey where I come from.
    Senator Burns. Oh, yes.

                  NORTHWEST AREA WATER SUPPLY PROJECT

    Senator Dorgan. It would not be fair to you if I did not 
mention the NAWS funding. That is not the province of this 
subcommittee, but it is in your agency. And you will appear 
before another subcommittee of mine on this. But as you know, 
the folks in Minot, North Dakota, and northwestern North Dakota 
are really upset, and that is a mild way of saying it, upset 
about the proposal not to fund NAWS.
    We have had the groundbreaking. Construction is under way. 
And the proposal is to stop that by, I understand, the Office 
of Management and Budget with a new program. It is called PART, 
I believe it is. Is it PART? And I am not doing this--what does 
PART mean?
    Secretary Norton. Program Assessment Rating Tool.
    Senator Dorgan. Right. I am involved in a formal program 
assessment rating of the Office of Management and Budget. And I 
have just a preliminary estimate of that. And it really does 
not look good for OMB.
    But no one has suggested, for example, that the NAWS 
program, which is, as I said, under construction, is anything 
other than a stellar program and the continuation of a promise 
that was made to the people of North Dakota as a result of 
being willing to host a half-a-million-acre flood that came and 
stayed. And then just out of the blue we discovered this de-
funding because of PART, I believe, from OMB. So tell me again, 
how does OMB justify recommending we not fund this program?
    Secretary Norton. There are several factors that went into 
their rating tool. One of the things that they looked at was 
the difference between the number of people served per million 
dollars under this program compared to other Federal agency 
programs. They found that the Bureau of Reclamation, on 
average, serves 363 people per million dollars, whereas the 
USDA program serves almost 1,800 people. EPA serves almost 
1,700 people. So that was one of their concerns as to why 
Interior's program was different than those other programs.

                RURAL WATER PROGRAM LEGISLATIVE PROPOSAL

    We are moving forward to address some of the problems that 
were identified in terms of lack of goals and consistency in 
the program. We do have underway a legislative proposal being 
developed that would establish a reclamation rural water 
program with adequate controls and clear guidelines for project 
development.
    It would provide a two-pronged approach that involves 
pursuing new general authority for reviewing, planning, 
prioritization, and construction of rural water projects, 
combined with administrative measures that would improve the 
program. It would eliminate the piecemeal approach that we 
currently experience. As we have discussed previously, there is 
no overarching rural water program that the Bureau of 
Reclamation has through which we have standardized funding or 
standardized approaches. That was one of OMB's concerns, that 
we try to put that in place instead of doing piecemeal 
projects.
    This legislative proposal would provide that type of 
overarching program. It would allow the Department and the 
administration to set priorities and control the process and 
would thereby limit the problems that were identified by OMB. 
It would also involve other interested parties in the planning, 
design, and construction of rural water supply projects.
    Although this is still in the formative stages, we will be 
happy to work with you on further developing that overarching 
program.
    Senator Dorgan. Well, let me understand this because when a 
project is underway or under construction, and the 
groundbreaking has taken place and, therefore, we have a 
project under construction, it seems to me you stop that 
project only if you believe that project is not worthy. Is the 
administration suggesting that the NAWS project is not a worthy 
project?
    Secretary Norton. The evaluation that was done was based on 
identification of goals and seeing whether we were meeting the 
goals of the project. It is the same kind of evaluation that is 
taking place on Federal programs across the board. Based on 
that approach, OMB found that this particular program fared 
more poorly than other programs. They made the choice to put 
the funding into the programs that did better in this kind of 
an approach.
    Senator Dorgan. But the distinction here is you are using 
the word ``program,'' not project. The OMB described this 
program as not meeting certain goals. It made no such judgment 
about this project. Is that not correct?
    Secretary Norton. This was based on, as we said, an overall 
assessment of the effectiveness of this rural water project or 
several rural water projects. It combines with an evaluation of 
those in comparison to other departments' similar programs.
    Senator Dorgan. Has Governor Hoven talked to you about this 
issue?
    Secretary Norton. Yes, he has.
    Senator Dorgan. It is interesting to me, if you look at the 
map, about where these cuts came. I will talk to you more about 
that in the other subcommittee. But I am still not 
understanding. I guess you are saying something to me that is 
different now than what you said when you testified before the 
Energy Committee. I think you are saying----
    Secretary Norton. I am saying we have made progress in 
getting some of these problems resolved.
    Senator Dorgan. At which point would you then recommend 
continuing funding of a project that is under construction?
    Secretary Norton. Once we get this in place, we would be 
focusing on fiscal year 2005 and working with you on getting 
legislation put in place and then work on funding things on 
that legislation.
    Senator Dorgan. So the administration's recommendation is 
that even if this project is finally determined to be worthy, 
that we should delay it for a year?

                       PROGRAM ASSESSMENT RATING

    Secretary Norton. The findings of the program assessment 
rating are that we need to look at those programs that are 
working, that are providing what they are supposed to provide, 
and to fund the things that are working. And this, by having 
come out low on that rating, by not having clearly-defined 
goals, means that we are going forward with something that is 
not coming out as high on providing value to the taxpayers.
    Senator Dorgan. But let me just--Mr. Chairman, I do not 
know what your time situation is, but I do want to just finish 
this point.
    You know, Montana and North Dakota did not rush to 
Washington to ask if we could host some floods in reservoirs 
and so on. I mean, we did not beg Washington to have a Rhode 
Island-sized flood come in North Dakota and stay there forever. 
Washington asked us to be the host to a permanent flood of half 
a million acres. So they built the dam, and we have a permanent 
flood.
    They said: ``In exchange for that, we will give you some 
benefits.'' And, I mean, we would be crazy to say: ``Well, 
bring this flood. And by the way, it will be no cost. We will 
just lose half a million acres of land,'' good bottom land, by 
the way.
    But the Federal Government said: ``No, no. We will give you 
some benefits.'' And we said: ``All right. That is a fair 
trade,'' except we got the flood but never quite got all the 
benefits.
    The NAWS program, the Northwest Area Water Supply, program 
is part of that. And for anybody to suggest to me that because 
there are fewer people in North Dakota that it somehow does not 
quite measure up, I mean, I think that is nuts. If that is what 
OMB is saying, I am sorry, tell them to go back and read a 
little history. We know we do not have as many people as New 
York City does, but we know what the promise was. And the 
people in North Dakota deserve good quality water.
    Here, incidently, is a sample of the water. And some of it 
looks like coffee. This is actually a little better looking. 
But this is the kind of water we are trying to replace with the 
NAWS program. And we do not want to wait another year, and we 
are not going to wait another year. And I think what OMB has 
done to us is a disaster. I mean, there is no excuse for what 
the Office of Management and Budget has done. We want this 
funded. We want it funded now. And we do not want to wait a 
year. And I do not want somebody telling me they are going to 
change the rules after we have already begun construction and 
after the promise has been made.
    So you and I will have other discussions about it. But you 
are probably just required to defend OMB and defend this 
budget. But I hope you know that what has happened in this 
budget, at least with respect to this project, is fundamentally 
wrong. And it is unfair to the people of North Dakota, who have 
been told this project is going to help them get a good supply 
of quality water.
    One additional point--do you want to respond to that?
    Secretary Norton. I think we have had a number of 
conversations about this. So----
    Senator Dorgan. And we will talk again in the other 
subcommittee.

                                OVERHEAD

    But one other point: I am very interested in pursuing with 
a range of agencies the issue of how much in each agency is 
represented by ``overhead.'' And that comes from a 1993 
Presidential directive that asks all Federal agencies to 
determine what their overhead was. Almost no Federal agencies 
have complied with that. And I have been involved with some 
others in trying to make sure that we do force Federal agencies 
to comply.
    The reason is simple. If we have to tighten our belt, and I 
believe we do, I believe we are going to have to cut some 
Federal spending. If we do that, I would prefer that we begin 
to cut where businesses would cut. The first thing they would 
cut is some overhead, some travel, some administrative burden. 
But the fact is we cannot get at that in any of the Federal 
agencies because they do not determine what their overhead is.
    I would like, at least in this subcommittee, to ask you to 
work with us to try to, for this agency, comply with the 
Federal direction of 1993, which has not been complied with. 
And I am not blaming your agency, because no agency has 
complied with it. But I hope that we can work together to 
understand what is the overhead burden, what is the 
administrative overhead burden, in these agencies, your agency 
and the various component parts of your agency.
    I think it is important because, Mr. Chairman, as we begin 
taking a look at funding levels, I would much prefer that we 
fund critically needed programs such as Indian colleges, rather 
than fund overhead that could well be cut in lean or in tough 
times.
    Secretary Norton. Senator, if I could say, that is a very 
good question to ask. And it is something that has, frankly, 
been frustrating for us as well. When you come in and say, 
``Okay, here is the box of a program. Can't we look within that 
box and figure out what is being spent that really does not 
need to be spent?'' The way our accounting is currently 
operating throughout most of the Department, we really cannot 
see how much is actually spent on particular types of things.

                         ACTIVITY BASED COSTING

    We are now moving towards something called activity-based 
accounting or activity-based costing that will let us 
understand that. And it will require each of the bureaus to say 
not just ``We budgeted for this program and we spent it all,'' 
but ``Here is what we spent on travel. Here is what we spent on 
printing. Here is what we spent on litigation,'' all the 
different categories of expenditures.
    That is something that is currently in place for the Bureau 
of Land Management, and we are getting it into place for our 
other bureaus. I think that will be very helpful for all of us 
in trying to better manage.
    We have also just implemented an across-the-board cut in 
travel expenditures. So we are addressing some of those things.
    Senator Dorgan. All right. Well, Madame Secretary, I am not 
perpetually crabby. It is just that I feel very strongly about 
tribal colleges, UTTC, about NAWS and some other issues. And I 
look forward to working with you on these issues. And can we 
work together to find out what we spend per horse and per mule, 
just for fun?
    Senator Burns. You are not going to like that figure.
    Senator Dorgan. Actually more than just for fun. I think we 
ought to know that, just as policymakers.
    Secretary Norton. We will provide that information for you.
    [The information follows:]

                      Wild Horse and Burro Program

    For 2004, the BLM budget proposes $29.4 million to manage a wild 
horse and burro population estimated at 57,000. This would represent a 
cost-per-animal average of $516 per year. This total population 
estimate includes 38,000 on the open range, and 19,000 in what BLM 
refers to as the ``National Pipeline'', including 10,155 in 
sanctuaries, 4,656 in maintenance facilities, and 4,303 in preparation 
facilities. The budget supports such activities as monitoring 
populations on the open range, gathers, holding costs, adoption 
activities, and compliance checks.

    Senator Burns. You are not going to like that horse figure. 
I will tell you that. We have been involved in that over in 
Montana. As you know, some of those wild horses and burros come 
from that part of the country. And I will tell you, it is 
something. I have some special projects in Montana.

                         POWDER RIVER BASIN EIS

    We have an 11:15 conference coming up, Madame Secretary. 
And I want to make that, I think all of us are involved in this 
budget thing. Though, there are a couple of questions I want to 
ask. We have been following the multi-year effort by the BLM on 
the environmental impact statement in the Powder River Basin. 
This has to do with coal bed methane. We want the EIS to be 
completed in a comprehensive and responsible way. Could you 
update us on the status of that EIS? And when can we expect any 
kind of a record of decision?
    Secretary Norton. Mr. Chairman, it is my understanding that 
that is expected to be completed later this month.
    Senator Burns. I assume you have all the resources that you 
need to complete this and to get it off the board?
    Secretary Norton. We have requested increases in this 2004 
budget proposal for taking care of that, including inspection 
and monitoring.

                        STEWARDSHIP CONTRACTING

    Senator Burns. Let me also ask you about standardizing the 
Forest Service and Department of the Interior stewardship 
programs. Will you be using the same book in your procedures, 
and everything else in the stewardship contracting? Tell me how 
that is coming along.
    Secretary Norton. We have had a great working relationship 
with the Forest Service throughout our fire program. It is my 
understanding that that is nearly completed to get the program 
that the Forest Service has already been operating tuned so 
that it can also accommodate our Department of the Interior 
needs.
    Senator Burns. Will you be offering some stewardship 
contracts this year?
    Secretary Norton. We certainly expect to be doing that very 
quickly. In fact, can I let Lynn Scarlett respond to that? She 
has been involved very directly in our fire management program.
    Senator Burns. Please.
    Ms. Scarlett. Yes, Mr. Chairman. We are working with the 
Forest Service and all our land management agencies to develop 
the operating guidelines and principles for the stewardship 
contract. We expect that to be completed this month. That will 
give us the basis from which to move forward on contracts right 
away. So yes, it is very much in our plans.
    Senator Burns. In the areas where you have large 
concentrations of forest lands, rather than grazing lands, do 
you have any kind of assessment of what kind of fire season you 
are looking at? And conditions, how are you looking in that 
respect? Give Congress an idea of some of the challenges that 
we may have to meet later on this summer.
    Ms. Scarlett. Well, I have copies of the recent drought 
maps. We get these every week. And I feel very optimistic, 
because the drought map in the last couple of weeks has 
improved dramatically over where it was in early March. 
Unfortunately, in preparation for this hearing, I looked at the 
drought map for this year in comparison with the drought map 
for last year. We are generally much worse across the western 
United States than we were last year. And especially in your 
area of Montana, we see a tremendous drought that is now a 
multi-year drought. So we are very concerned.
    Senator Burns. We are in a different weather pattern up 
there. We are hoping that June will bring the normal--where we 
have a little more snowpack than we had a year ago, I can tell 
you that. Our rains and moisture have been a little bit better 
this spring. We just hold our breath and make sure our Junes 
turn out the way traditional Junes do, and we will be okay.

                   ZORTMAN/LANDUSKY MINE RECLAMATION

    In another area, I know you are aware of the Zortman/
Landusky Mine reclamation in north-central Montana. The State 
of Montana holds approximately $60 million in bond for 
reclamation. But the BLM and State DEQ joint SEIS recommends 
reclamation exceeding this bond of approximately $33 million 
over that bond number. $11 million is still needed to 
supplement a trust, ensuring the water treatment facilities. It 
can be operated in perpetuity.
    It is my understanding that the Montana BLM office 
identified this project as a top priority and requested 
increased funding in its fiscal year 2003 and fiscal year 2004 
budget to address these reclamation needs. Additionally, this 
committee directed the Bureau to consider the project in the 
formulation of the 2004 and 2005 budget requests. Why did the 
Department not include this request in its final proposal in 
the 2004 budget? And can you identify funding for your current 
budget request to support these activities? In other words, are 
you going to put some money into this?
    Secretary Norton. Let me defer to John Trezise. But I think 
we will have to get the detailed answer for you in writing.
    Senator Dorgan. Mr. Chairman, before he answers, I have to 
run off to the Energy Committee markup.
    Senator Burns. Okay.
    Senator Dorgan. So let me thank the Secretary and the 
Secretary's staff for being here.
    Secretary Norton. Thank you.
    Senator Burns. Thank you. Thank you, Senator Dorgan. 
Appreciate it. You can vote for me.
    Senator Dorgan. I will do that. Careful what you ask for.
    Senator Burns. All right.
    Mr. Trezise. Senator Burns, this is a very difficult 
problem and obviously one where a great deal of work is needed 
to restore the Zortman/Landusky site and address the water 
quality problems associated with the site. Work is currently 
ongoing, of course, using the bond that was posted by the 
mining company. Unfortunately, the bond is not adequate to 
cover all costs, especially the long-term costs. The water 
monitoring costs we will face for many decades.
    As you say, the Montana office did recommend significant 
funding in the 2003 and 2004 budgets for this project. We at 
the Department and the Bureau headquarters are working with the 
Montana State office to look at all the options about how we 
can address this issue, both in the short term and, more 
importantly, in the long term, which is where the bond money is 
really going to be a problem. I think it would be useful for 
the Bureau to come up and talk to you later in the spring about 
the progress they have made in looking at options.
    Senator Burns. Well, we look forward to that visit. Also, I 
was talking to the tribal leaders at Fort Belknap, and they 
want to have a meeting with you. They have not been able to 
secure one, Madame Secretary. I would suggest you sit down with 
the tribal leaders at Fort Belknap, go through some of the 
concerns they have. Because they are in that drainage area off 
of Zortman, not only on water, but also on land issues. I would 
like for you to meet with them, if you possibly could.
    Secretary Norton. I will try to make sure that somebody who 
is familiar with the issues and can actually perhaps address 
them better than I can is able to meet with them.
    Senator Burns. I would suggest you sit in on the meeting, 
but take your experts with you. That is the way we do things, 
just a little hint.
    Okay. We have more questions for you, and I am going to put 
those in letter form. We would like to have a response.
    We are looking at the overall funding. And, of course, we 
do not know what is going to finally come out of the budget. 
But we hope to have a budget. That is what that conference is 
about at 11:15 today. We are going to talk about Going to the 
Sun Road in Glacier Park, and also some Forest Service, and 
stuff with fuel loads on our forest floors.
    There is a reauthorization of the SMCRA activities, Surface 
Mining Control and Reclamation Act. And, of course, surface 
mining and State regulatory grants. We will put these in 
question form. We will need your response before we finally go 
to final markup on the Interior side of this bill.
    Secretary Norton. We will be happy to provide you that 
information.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Burns. Okay. We appreciate you coming this morning. 
And we will leave the record open for questions, from other 
committee members.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Conrad Burns

                         SMCRA REAUTHORIZATION

    Question. The authority of OSM to collect the abandoned mine 
reclamation fee established under the Surface Mining Control and 
Reclamation Act (SMCRA) expires on September 30, 2004. Many states out 
West have paid a great deal in these fees which go into the Abandoned 
Mine Reclamation fund abut have not received back anywhere near what we 
put in. For example, Montana has paid in over $266 million but has only 
gotten back about $100 million.
    What is the Administration's position with respect to extending the 
authority to collect this fee?
    Answer. The Administration is seeking to extend fee collections 
beyond September 30, 2004. We think that additional funds are necessary 
to address the many remaining health and safety problems threatening 
our citizens who live and recreate in coal country. OSM hopes to craft 
a proposal that will concentrate funding on the highest priority 
abandoned mine land problems affecting the largest number of people. We 
have been working with our stakeholders (the States and Indian tribes, 
as well as environmental groups, industry and members of Congress) to 
develop an extension proposal.
    Question. If you propose to extend SMCRA, does the Administration 
support keeping the fee the same or will you propose increasing it?
    Answer. The President's Budget assumed the extension of the fee at 
its current rate. However, we continue to refine the proposal.
    Question. Will there be anything in the proposal to deal with 
states that have paid in a great deal but have not gotten much back?
    Answer. The Administration is reviewing several options for paying 
out AML funds to the States. States which have certified the completion 
of coal mine land reclamation, like Montana, are of particular concern 
to us. Our records show that as of September 30, 2002, over $275 
million in AML fees has been collected from mining operators for coal 
mined in Montana. Under SMCRA, 50 percent of those collections, or over 
$137 million, are State Share funds targeted for projects in Montana, 
of which $95 million has been distributed to the State of Montana for 
grants. The remaining State share balance of $42.5 million is a 
concern, and we hope to find ways to provide the payment of such funds 
to Montana and to the other certified States.
    Question. When will the Administration send its proposal to 
Congress?
    Answer. We're working diligently to develop recommendations for 
Congress. We hope to have something ready by mid-summer.

                        STATE REGULATORY GRANTS

    Question. As you know, the Office of Surface Mining provides grants 
to states on a 50/50 cost share basis to regulate mining in their 
states. This is a good deal for the Federal government, since if the 
states did not regulate surface mining the Federal government would be 
required to do it and pay 100 percent of these costs. I see that the 
budget request for this activity is $57.6 million but that the states 
asked for $64.4 million.
    If we don't fund the full amount asked for by the states will it 
lead to any serious problems such as legal challenges to state programs 
based on their inability to carry out their regulatory requirements?
    Answer. The amount requested in the President's Budget is a slight 
increase from fiscal year 2003, and OSM believes that the requested 
total will be sufficient to assist the States/Tribes. OSM is concerned 
about the States and Tribes having adequate funding to meet their 
requirements and will work with each individual State and Tribe to 
ensure that their program needs are met. OSM will continue to closely 
monitor the State programs, and State and Tribal funding requests and 
expenditures, to identify and resolve any concerns.
    Question. Do you expect that any states will turn the regulatory 
program back over to the Federal government due to lack of funding?
    Answer. OSM is not currently aware of any specific State or Tribe 
seriously considering giving up regulatory primacy due to lack of 
funding. We agree that it is possible that if funding were inadequate, 
States might pursue this option. As previously mentioned, OSM will 
continue to work with each State and Tribe to ensure that their 
regulatory program needs are met.
    Following the release of the NRC report, the agencies agreed to 
form a standing technical team to address issues of mutual concern, 
particularly those related to coal slurry impoundments. The group will 
focus on NRC report recommendations related to mapping, engineering and 
design standards, and monitoring requirements. Additionally, the 
agencies have discussed the other recommendations of the NRC committee 
and have identified priorities for future work. The standing joint OSM-
MSHA technical committee will begin addressing particular actions 
needed to implement the NRC recommendations at its July 2002 meeting. 
As these efforts are ongoing, neither OSM nor MSHA have yet developed 
any regulatory proposals or guidelines based on the NRC report. 
However, as the joint team's work progresses, one or both of the 
agencies may develop additional requirements for impoundments.
    At the same time, OSM is committed to working with the states and 
others on these issues as well. OSM and MSHA plan to host a meeting 
between representatives of the two agencies and the states to discuss 
their role in developing standards and approaches to implement any new 
requirements.
    Not only is OSM working with MSHA, the states and other federal 
entities, OSM is working on its own to address concerns surrounding the 
safety of coal waste impoundments. After the Martin County Coal 
Corporation impoundment failure, OSM developed and implemented a 
regional plan designed to minimize the potential for future impoundment 
breakthroughs into underground mines by:
  --evaluating the factors contributing to the Martin County 
        impoundment breakthrough,
  --developing criteria for evaluating existing high-risk impoundments 
        near underground mines,
  --evaluating state program requirements and program implementation 
        with regard to impoundments, and
  --ensuring effective state evaluation of existing high-risk 
        impoundments through oversight and technical assistance.
    As part of its oversight responsibilities, OSM has made 
impoundments a priority by initiating ongoing evaluations of state 
programs to ensure that they are adequate and that they are effectively 
implemented. A part of this effort includes a determination of whether 
the states are effectively evaluating existing high-risk impoundments, 
identifying problems, and adequately addressing those problems.
    In providing technical assistance on this issue, OSM has made 
resources available to the states to assist them in their identifying 
and evaluating existing impoundments that are of high concern. In 
addition, using its impoundment engineering expertise, and with input 
from states and MSHA, OSM has developed a technical guidance document 
with established criteria that can be used in re-evaluating existing 
high-risk impoundments over or adjacent to underground mines. OSMS 
provided this document to the states in July 2001.
    Finally, OSM has worked to facilitate communication between State 
and Federal agencies involved in regulating coal slurry impoundments 
and related facilities. Through enhanced communication, coordination 
and cooperation, OSM believes that many of the issues related to coal 
waste impoundments can be resolved.

                          MMS ROYALTY-IN-KIND

    Question. I see that MMS has greatly expanded its use of the 
Royalty-In-Kind authority. Currently, over 80 percent of the oil 
production from the Gulf of Mexico is taken ``in kind'' in order to 
fill up the Strategic Petroleum Reserve (SPR).
    How long will it take for MMS to fill up the SPR?
    Answer. The SPR Fill Initiative is a joint project of the 
Department of Energy (DOE) and the Department of the Interior (DOI) to 
fill the remaining capacity of the SPR utilizing RIK oil from Federal 
leases in the Gulf of Mexico. For the majority of RIK oil committed to 
the SPR Initiative, the DOI is responsible for supply side logistics of 
taking the oil RIK at offshore leases and accomplishing delivery of the 
oil to the account of the DOE at onshore market centers. The DOE is 
responsible for taking onshore custody of the RIK oil and, through 
exchange contracts, accomplishing the actual delivery and physical fill 
at the SPR sites. Approximately 10 percent of RIK production is 
directly transported from offshore leases to the DOE at an SPR site.
    At current RIK delivery rates, the MMS expects to complete the RIK 
oil supply side deliveries to the DOE's account by the end of fiscal 
year 2005. However, the completion of supply side deliveries could be 
delayed somewhat due to interruptions of production caused by 
hurricanes and pipeline operation issues or by declines in physical 
production at the leases.
    Question. After SPR is filled, does the agency plan to continue to 
take the bulk of its Gulf of Mexico royalty production ``in kind'' 
rather than ``in value?''
    Answer. The MMS has adopted an asset management strategy in 
administering mineral revenues. A key aspect of this strategy is the 
strategic utilization of two asset management options--royalty-in-value 
or RIK--for the purpose of increasing benefits to the Government. One 
of the important determinants in making the decision on which option to 
utilize is the opportunity to increase revenues to the Treasury. 
Because the oil markets play an important role in the economics of the 
decision making process, it is difficult to forecast how much of the 
Gulf of Mexico oil royalties will be taken in kind in fiscal year 2006. 
However, the MMS will be well positioned to continue to have a 
significant RIK program in the Gulf of Mexico that includes small 
refiners and competitive sales.
    Question. Since taking the royalty ``in kind'' eliminates, for the 
most part, questions over how to value the oil, does the agency believe 
that expanding the RIK program makes sense over the long term?
    Answer. The results of the current RIK program to fill SPR have 
been positive from the standpoint of taking oil in kind. However, we 
have not traded this oil for value on the open market. Therefore, we 
don't know if we can increase revenues to the Treasury. We continue to 
evaluate the RIK efforts; if the results continue to be positive, we 
believe there is a good future for the RIK program.

                   OIA/STATUS OF COMPACT NEGOTIATIONS

    Question. The current Compact of Free Association between the 
United States and the Marshall Islands and the Federated States of 
Micronesia expires at the end of this fiscal year. Negotiations have 
been going on for some time regarding a new Compact between the 
parties. Once these negotiations are concluded Congress will need to 
pass legislation to put the new Compact into effect. I am concerned 
that time is running out to get this legislation through the Congress 
by the end of the fiscal year.
    When will parties reach agreement on a legislative package that 
will be sent to the Congress?
    Answer. The State Department has generally reached agreement with 
the freely associated states and, in fact, a signing ceremony was 
concluded with the Republic of the Marshall Islands. The package has 
been transmitted to Congress.
    Question. Does the Administration have a plan if there is further 
delay and the new Compact can't be enacted by Congress before the end 
of the fiscal year?
    Answer. While it is not considered a good alternative, the 
Administration is prepared to deal with such an eventuality. There is 
sufficient budget authority in the President's fiscal year 2004 
proposal to work with the Congress on various options. In developing 
these options, it is extremely important to the Administration that the 
essence of the new agreement, including greater accountability and more 
targeted use of U.S. assistance, be incorporated. It is also important 
to the Administration that options deal with the problem of impacts to 
U.S. insular areas and, finally, that any considered options not be 
viewed as a disincentive to the quickest possible implementation of the 
new agreements.

              FWS/CONSULTATION ON FUELS REDUCTION PROJECTS

    Question. A critical part of the National Fire Plan is the effort 
to reduce hazardous fuels on our forests and rangelands. Many of these 
projects require consultation with the Fish and Wildlife Service under 
the Endangered Species Act before they can be implemented. In order to 
ensure adequate resources to accomplish this work, the Committee gave 
the Forest Service and other Interior Department agencies the ability 
to transfer fire funds to the Fish and Wildlife Service for 
consultations on these projects.
    How is this effort proceeding?
    Answer. The Service developed a cooperative agreement with the 
Bureau of Land Management shortly after passage of the fiscal year 2001 
appropriations bill to provide reimbursement for any consultation 
support provided to DOI bureaus in support of the National Fire Plan. A 
similar agreement was executed with the Forest Service shortly after 
passage of Public Law 107-13. Beginning in fiscal year 2001, the Fish 
and Wildlife Service recruited approximately 65 temporary/term 
employees to support an anticipated consultation workload increase 
associated with the National Fire Plan. The highest priority work for 
these new employees is to provide ESA consultation support to the 
Forest Service and DOI fire management agencies.
    Question. Has the Fish and Wildlife Service put in place adequate 
resources to ensure that fuels reduction projects receive their 
consultations in a timely manner?
    Answer. Yes. The biologists hired in fiscal year 2001 and 2002 to 
provide consultation services to the fire management agencies have been 
sufficient to respond to the consultation workload generated by 
projects supporting the National Fire Plan. We are not aware of any 
significant delays to National Fire Plan projects that were caused by 
section 7 consultations; however, some non-National Fire Plan projects 
may have been delayed as a result of the Service diverting consultation 
resources to National Fire Plan projects. On June 5, 2003, we proposed 
Joint Counterpart Endangered Species Act Section 7 Consultation 
Regulations to help streamline the National Fire Plan consultation 
process and increase the Service's capability to help focus on these 
non-National Fire Plan actions (68 Federal Register 33805).
    Question. How much money has been transferred to the agency for 
this work?
    Answer. To date, the USFS has made $7,500,000 available to the 
Service, and the BLM, $8,000,000.

                         GOING-TO-THE-SUN ROAD

    Question. The fiscal year 2003 bill included additional funds for 
staff and equipment at Glacier National Park. These funds will 
hopefully enable the Park to open the Going-to-the-Sun Road as quickly 
and as safely as possible each spring. Can you tell me whether these 
additional resources will be in place in time to have an impact on this 
year's road opening? Are funds included in the fiscal year 2004 budget 
to continue these enhanced operations next year?
    Answer. Glacier National Park staff has already begun seven-day-a-
week operations on the west side of the Going-to-the-Sun Road. East 
side seven-day-a-week operations began May 10, 2003. In terms of 
equipment, Glacier NP has already contracted for an excavator to be 
used for snow removal this year. In addition, the park is leasing two 
additional pieces of snow removal equipment for this season. As part of 
the initiative to assure employee and visitor safety, the park will be 
procuring a GIS location system with funds received from Congress this 
fiscal year. Finally, this effort at Glacier NP is part of an overall, 
ongoing strategy to better manage the opening of the Going-to-the-Sun 
Road and the above-stated efforts will continue into fiscal year 2004 
and beyond.
    Prior to the enactment of the fiscal year 2003 bill, the fiscal 
year 2004 request identified a $500,000 operating increase for the 
Spring opening of Going-to-the-Sun Road. This recurring funding was 
included within the additional park funding provided by Congress for 
fiscal year 2003 and continues in fiscal year 2004 and beyond.
    Question. I know the Administration's budget request projects an 
increase for the park roads program to $300 million in fiscal year 2004 
as part of the reauthorization of TEA-21. Is it your understanding that 
this amount will be sufficient to complete the Going-to-the-Sun Road 
rehabilitation in a timely manner?
    Answer. The President's Budget for fiscal year 2004 articulated a 
Park Roads and Parkways Program (PRPP) funding level for National Park 
Service (NPS) of $300 million in fiscal year 2004, $310 million in 
fiscal year 2005, and $320 million annually in fiscal year 2006-2009. 
This would nearly double current funding levels of $165 million 
annually. Part of President Bush's ``Park Legacy Project'' is to 
address the NPS backlog of maintenance needs across the Service. A 
significant portion of the backlog is in roads.
    The NPS seeks to continue the progress made under the 
Transportation Equity Act for the 21st Century (TEA-21) to restore, 
build, and reshape its transportation system, by giving priority and 
focus to the following categories:
  --Category I ($270-$310 million/annually).--Restores the condition of 
        the existing roads to ``good,'' system wide. Supports President 
        Bush's commitment to address the NPS deferred maintenance 
        backlog. Deploys sound asset management strategies to optimize 
        life cycle cost.
  --Category II ($3-$10 million/annually).--Builds the next logical 
        phase of the Congressionally mandated parkways. Continues 
        construction of the Foothills Parkway ``missing link'' and 
        begins the construction of multi-use trails around three urban 
        areas along the Natchez Trace Parkway.
  --Category III ($20 million/annually).--Continues to plan and build 
        alternative transportation systems. Deploys integrated visitor 
        transportation systems using a combination of technologies, 
        facilities, and community transport management strategies.
    Historically, these categories are administrative in nature only 
and are not legislatively directed to allow maximum flexibility to move 
dollars across categories to facilitate high annual obligation rates 
and to meet emergency and/or critical Service-wide priorities.
    Rebuilding the Going-to-the-Sun Highway is a complex multi-million 
and multi year-construction event with an identified need of some $150-
$180 million. Much of this need goes beyond bridge and pavement 
condition. Latest studies reflect an ambitious schedule that would take 
approximately $18-$25 million annually over some eight years.
    Category I funds are distributed by formula based on miles, 
condition, average daily traffic and traffic accidents. The logic is to 
deploy sound asset management strategies to spend the dollars at the 
right time and at the right place to get the best return on available 
funds. The Service has many parks with large road maintenance needs. 
The Administration's proposed $270-$310 million annually means the 
Intermountain Region will receive some $60-$70 million annually, an 
increase of $30 to $35 million over the current level. Accordingly, the 
NPS is challenged with making headway with such large park needs as the 
Going-to-the-Sun Highway rehabilitation while balancing the mix of 
projects across the Service and Intermountain Region so as to not 
compromise President Bush's commitment to address the deferred 
maintenance backlog and ensure the system is in ``good'' condition 
system wide.
    The President's Budget would provide significant funding for the 
Going-to-the-Sun Road at a rate about as fast as could be efficiently 
obligated. Even at this accelerated rate, however, such an extensive 
project would be in all probability pushed past the end of the next 
Highway Trust Fund Reauthorization (fiscal year 2009).
    Question. Will the Administration's legislative proposal for TEA-21 
reauthorization include language that specifically addresses the needs 
of large projects like the Going-to-the-Sun Road?
    Answer. Currently, the Administration's legislative proposal for 
Transportation Equity Act for the 21st Century (TEA-21) reauthorization 
has not been completed and formally submitted to Congress. We 
understand the package will be forwarded in the middle of May 2003.
    The Administration's legislative proposal does not include specific 
language for large projects. The funding for the Park Roads and 
Parkways Program (PRPP) has historically not been legislatively 
identified for a specific area or category to allow flexibility across 
categories to facilitate high annual obligation rates and meet 
emergency and/or critical Service-wide priorities. The PRPP has been 
guided by program goals such as keeping the system from further 
deteriorating, completing four of the six Congressionally mandated 
parkways and completing pilot parks to explore and implement 
alternative transportation systems. The NPS has proposed to continue to 
focus on these three areas with the dollars made available. Given the 
large increases proposed, the PRPP will be able to address the needs of 
large projects, like the Going-to-the-Sun Road, without requiring 
specific language.

                   FORT PECK RESERVATION/DRY PRAIRIE

    Question. It is my understanding that the Office of Management and 
Budget has completed its review of the engineering report for the Ft. 
Peck/Dry Prairie water project in Montana.
    How soon will the engineering report be transmitted to Congress?
    Answer. The Final Engineering Report was transmitted to Congress in 
a letter signed by the Assistant Secretary for Water and Science on May 
6, 2003.
    Question. Will the Department be in a position to obligate funds 
this year? If not, why not?
    Answer. The likelihood is high that funds can be obligated this 
fiscal year. Contracts have been negotiated for obligation of funds and 
work plans are being developed by Fort Peck Tribe and by Dry Prairie. 
Funds may then be obligated for non-construction activities, a process 
that may take about a month to complete. Funds for construction 
activities may be obligated in August/September of 2003, which is after 
the Final Engineering report sits for a mandatory 90 days from the time 
it was transmittal to the Congress (May 6, 2003).
    Question. Can you tell me why no funds were requested for this 
project in the fiscal year 2004 budget request?
    Answer. It has been Reclamation's position, as articulated by the 
Commissioner of Reclamation on this and other rural water projects, 
that, given limited funding, Reclamation does not support starting 
construction of new projects to the detriment of projects already under 
construction.

                     PRESIDENT'S MANAGEMENT AGENDA

    Question. Pursuant to the President's Management Agenda, the 
Department has been studying whether or not it makes sense to outsource 
certain Federal jobs.
    Can you tell us where you are in the process?
    Answer. DOI has completed review/study of 1,079 FTE as of mid-April 
2003. We are in the process of conducting seven full A-76 competitive 
sourcing cost comparisons. DOI is on track to complete competitive 
sourcing studies on 15 percent (3,041) of the FTE listed in their 
fiscal year 2000 FAIR Act Inventory by the end of 2003.
    Question. How many positions has the Department decided to study?
    Answer. DOI has committed to a cumulative ``soft target'' of 25 
percent (5,068) by the end of fiscal year 2004.
    Question. When will these studies be completed, and when will 
decisions be made about whether to outsource?
    Answer. The study results of the remaining 1962 for fiscal year 
2003 will be completed by December 2003. The decision to remain in-
house or contract with a private sector source will also be made around 
December 2003. The studies for fiscal year 2004 (an additional 2,027 
for a total of 5,068 FTE) will begin October 2003 and the results will 
be announced in first quarter fiscal year 2005 (October/November 2004).
    Question. What has been the cost of the studies throughout the 
Department?
    Answer. As of June, 2003, the Department's estimate on the cost of 
studies and other related costs for fiscal year 2003 was $3.3 million. 
This estimate includes the following:
    BLM--$886,000 in study costs as of June 2003
    OSM--zero as all studies were performed in house
    NPS--$1.6 million anticipated costs for 2003 as reflected in a July 
11, 2003 reprogramming
    BIA--$400,000 anticipated costs for 2003 (projected in June 2003)
    GS--$160,000 in study costs as of June 2003
    MMS--$74,000 in study costs as of June 2003
    FWS--$200,000 anticipated costs for 2003 (projected in June 2003)
    For internal purposes these amounts were reported to appropriations 
staff on June 6, 2003.

             BUREAU OF LAND MANAGEMENT--CBM EIS FOR MONTANA

    Question. I have been following the BLM's multi-year effort in the 
preparation of the Environmental Impact Statement for the Powder River 
Region of Montana with a great deal of anticipation and interest. We 
have worked with the Department to secure additional funding above past 
budget request figures to ensure that adequate environmental studies 
would be completed and that the EIS would be done in as responsible a 
manner as possible.
    Could you update us on the status of the EIS, and when can we 
expect a record of decision?
    Answer. The Record of Decision (ROD) for the Final Statewide Oil 
and Gas EIS and Proposed Amendment to the Powder River and Billings 
Resource Management Plans was signed on April 30, 2003.
    Prior to signing the ROD, the Director of BLM resolved all 
protests, including 21 protest letters that addressed issues on the 
Montana side, 76 protest letters that addressed issues on the Wyoming 
side, and 98 letters that addressed issues in both states.
    In order to resolve the protests, the BLM needed to determine the 
validity of each protest filed, prepare a written decision, and set 
forth the reasons for the decision. The decisions were sent to the 
protesting parties by certified mail in April 2003.
    In addition, 400 faxes and 18,000 emails were received during the 
protest period. Since letters of protest were required to be sent to 
the Bureau Director, faxes and emails were not valid protests and did 
not require individual responses.
    Question. I assume we have completed the need for resource planning 
dollars for this specific EIS. Does the current fiscal year 2004 budget 
submission include adequate funding in the oil and gas base program to 
support development in the Powder River Region of Montana in fiscal 
year 2004?
    Answer. The proposed funding for fiscal year 2004 will be adequate 
based on the number of Applications for Permit to Drill (APD) we have 
received so far in 2003 and expect to receive by the end of the fiscal 
year. The 2004 budget request also factored in the level of demand for 
2004 that was projected at the time the budget was formulated. If 
actual demand in 2004 deviates from this projection, BLM will consider 
any necessary budgetary adjustments to ensure appropriate support for 
development of Coalbed Natural Gas in the Powder River Basin of 
Montana.

           BUREAU OF LAND MANAGEMENT--MONTANA GAS PERMITTING

    Question. Madam Secretary, in the face of natural gas prices 
skyrocketing once again to record levels, and questionable domestic 
energy security, I applaud your leadership to increase responsible and 
reasonable domestic production.
    It is my understanding that the funding increases for energy 
permitting that your Department has proposed--and this Committee has 
supplemented--are resulting in real results on the ground. I am told 
the Department is planning on announcing a substantial number of new 
gas leases being permitted in eastern Montana as early as this week.
    Could you please update us on the status of this increased 
permitting activity and give us a sense of whether other regions of the 
country are seeing similar results?
    Answer. In Montana, BLM expects to process 24 percent more APDs 
than in 2002. BLM has already processed 68 percent of the 279 APDs 
expected in 2003. The Miles City field office has in the last month 
received 99 APDs for coalbed natural gas.
    The following table shows the APDs processed in fiscal year 2002 
and so far in fiscal year 2003 relative to the fiscal year 2003 goal. 
It also gives an estimate of the number of APDs to be processed in 
fiscal year 2004 in Montana and other states with APD activity. This 
table reflects total oil and gas APDs, not just those associated with 
Coalbed Natural Gas.

                                        APPLICATIONS FOR PERMITS TO DRILL
----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal years
                                                             ---------------------------------------------------
                                                                           2003 actual
                                                                  2002      (as of  6/      2003         2004
                                                                 actual       30/03)      planned     estimated
----------------------------------------------------------------------------------------------------------------
California..................................................          149           66          245          260
Colorado....................................................          264          179          240          275
Montana.....................................................          225          189          279          920
New Mexico..................................................        1,134          912        1,185        1,335
Utah........................................................          512          294          450          538
Wyoming.....................................................        1,787        1,043        2,750        3,400
Other states................................................          564           46          351          272
                                                             ---------------------------------------------------
      Total.................................................        4,635        2,729        5,500        7,000
----------------------------------------------------------------------------------------------------------------

    Question. I am told that the Bureau of Land Management is 
interested in addressing the concern that some offices are seemingly 
much more inefficient than other offices in addressing the backlog of 
energy applications.
    Can you speak to the Bureau's work to explore methods to increase 
efficiency and predictability in the permitting process?
    Answer. BLM holds its field managers accountable for annual 
workload targets and timeliness of responses to authorization requests 
from industry. BLM is using cost management data along with the 2002 
customer survey results to pinpoint where APD processing delays are 
occurring and to identify how to prevent any further delays. In 
addition, the BLM is taking several steps which will improve the APD 
processing time frames. On April 14, 2003 the BLM Washington Office 
issued 5 Instruction Memorandums (IMs) on APD process improvement. 
These IMs cover Conditions of Approval, Cultural Resources, revision of 
Onshore Oil and Gas Order No.1 which specify minimum standards of 
performance for oil and gas operators, Comprehensive Strategies, and 
revision of the Oil and Gas ``Gold Book'', a reference book used by oil 
and gas operators to comply with surface use standards for oil and gas 
operations.
    The IM on Conditions of Approval (IM 2003-146) asked the Field 
Offices to supply the Washington Office with copies of conditions of 
approval currently being used. The Washington Office will then develop 
standard conditions of approval and guidance on how to develop 
reasonable and enforceable conditions of approval. This will help oil 
and gas operators by eliminating inconsistencies across the Bureau.
    The IM on Cultural Resources (IM 2003-147) identifies some ``best 
practices'' being used in some Field Offices concerning Cultural 
Resources. All Field Offices are instructed to use these ``best 
practices'' to help streamline the APD processing time frames.
    In July 2003, over 50 percent of pending permit applications were 
incomplete. BLM is revising Onshore Oil and Gas Order No. 1 (IM 2003-
151) and the Oil and Gas ``Gold Book'' (IM 2003-153), two references 
used by oil and gas operators to comply with standards concerning 
surface use for oil and gas operations. Clarifying these two references 
will make it easier for oil and gas applicants to submit a complete 
application, thus reducing APD delays.
    The IM on Comprehensive Strategies (IM 2003-152) outlines some 
strategies Field Offices can employ to streamline the APD processing 
time. This IM publicizes to all BLM Field Offices some ``best 
practices'' for APD processing being used by other BLM Field Offices.

        PILT--PROPOSED MOVEMENT FROM BLM TO THE DEPARTMENT LEVEL

    Question. Madam Secretary, this year's request includes a proposal 
to move funding for PILT out of the BLM account and shift the program 
to the Department level.
    Setting aside the request's decrease of $18.5 million from the 
fiscal year 2003 enacted level, which concerns me greatly, could you 
explain the Department's proposal to shift this program to the 
Department level?
    Answer. PILT payments are principally based on public lands in 
local jurisdictions that are Federally-administered by U.S. Fish and 
Wildlife Service, National Park Service, U.S. Forest Service, and other 
Federal agencies, in addition to the BLM. Funding for PILT is not 
singularly attributed to one Department agency. The program is being 
consolidated at the Department level in recognition of the fact that 
PILT payments are made not only for BLM lands, but also for the lands 
of these other Federal agencies, and to ensure that appropriate 
emphasis can be directed to this program.
    Question. The Interior Appropriations Act has historically capped 
the administrative costs for the PILT program at $400,000? Will the 
Department be able to live within this cap, or hopefully reduce the 
administrative costs further?
    Answer. Yes, the Department will be able to continue administration 
of the PILT program at the $400,000 level.

             BUREAU OF LAND MANAGEMENT--ENERGY AND MINERALS

    Question. Madam Secretary, I notice your budget for the BLM 
essentially asks for level funding for Energy and Minerals production, 
rather than including a substantial increase, as has been the case in 
the past two requests.
    I whole-heartedly applaud your efforts to increase domestic 
production, but I am curious if the lack of increase in this year's 
request for Energy and Minerals was based upon budget limitations or 
the reality that we are doing everything we can to address the current 
permitting backlogs and related activity.
    Answer. Funding increases in the last two years have brought BLM's 
Energy and Minerals program up to $106 million in 2003, an increase of 
34 percent over the 2001 level of $79 million. These increases--which 
have been generally in line with the Administration's requests and 
reflect the high priority the Administration places on energy 
development--have been built into the ``base'' for the fiscal year 2004 
request. The fiscal year 2004 budget request for the BLM's Energy and 
Minerals Management program is adequate to reduce the current APD 
backlog, based on the estimated number of APDs that the Bureau expects 
to receive during 2003 and 2004. The BLM has had indications that some 
operators are planning to submit large numbers of APDs in the future, 
especially in the Powder River Basin and in other areas with potential 
coalbed natural gas development. However, based on past experience, the 
BLM cannot count on this increase in activity. It is not uncommon for 
an operator to tell the Bureau that plans for the following year 
include drilling large numbers of wells, only to have the operator 
change his/her priorities the following year, and not drill any of the 
wells that were planned. The BLM has planned for a 27 percent increase 
in activity over 2003. An increase greater than 27 percent would likely 
result in a growing APD backlog, while an increase of less than 27 
percent would allow BLM to further reduce the existing backlog beyond 
what has been anticipated in 2004. Also, to the extent that some of 
BLM's efforts to improve efficiencies are successful, BLM could see 
additional reductions in the APD backlog.
    Question. Could you detail some of the initiatives that the BLM 
will be undertaking in fiscal year 2004 that are designed to increase 
domestic energy production while also diversifying our energy 
portfolio?
    Answer. The National Energy Policy specifically directs BLM to 
address several key issues that are vital to the current and future 
status of the Nation's energy program. In response, the BLM has 
developed a plan that will continue to be implemented in 2004. In 
Alaska, BLM will conduct a second biennial lease for oil and gas in the 
northeast sector of the National Petroleum Reserve-Alaska (NPR-A). BLM 
is also pursuing the expansion of the area offered for lease to include 
the northwest and southern section of NPR-A. BLM plans to increase 
support for coalbed natural gas development in areas beyond the Powder 
River Basin and to continue support for active coal leases to provide 
these fuels that are so vital for power generation.
    In order to respond to the demand for diverse energy sources, the 
BLM plans to process and approve twice the number of geothermal permits 
to drill in 2004 that are processed in 2003. Also, the BLM will 
concentrate on processing geothermal applications for development on 
U.S. Forest Service public lands in California, Oregon, and Washington, 
and clear new areas managed by the Bureau for geothermal leasing in 
Utah, New Mexico, Idaho, and Arizona. BLM's efforts are expected to 
result in a 15 percent increase in geothermal power plants.
    In Idaho, Utah, and Nevada, BLM plans to update land use plans and 
perform environmental studies needed to respond to applications for 
wind energy development. BLM staff will also be responding to demand 
for access across BLM lands for transmission lines and pipelines 
related to renewable and non-renewable energy development. BLM 
recognizes that timely issuance of these right-of-ways is important to 
the economic viability of these projects.
    BLM is also incorporating in Resource Management Plans the 
information contained in a new report titled, ``Opportunities for Near-
Term Geothermal Development on Public Lands in the Western United 
States''. This report (released in April 2003) identifies 35 ``top 
pick'' sites in six western states for near-term development of 
geothermal energy for power generation. Of the 35 sites, ten are in 
Nevada, nine are in California, seven are in Oregon, and three each are 
located in New Mexico, Utah, and Washington. The report was prepared 
for the BLM and the Department of Energy by the National Renewable 
Energy Laboratory.
    Question. In my experience, these initiatives are largely supported 
by State and local governments. In your opinion, is the Department 
working well with local government entities and are they generally 
supportive of these efforts?
    Answer. BLM field offices work closely in the development of land 
use plans, which provide the framework for managing the exploration and 
development of energy. In addition, State governments are often 
cooperating agencies in the preparation of major environmental impact 
statements (EIS). In the case of the coalbed natural gas development 
EISs, both Montana and Wyoming State agencies assisted in the 
preparation or review of these important environmental documents. State 
agencies with permitting authority, such as Montana's Board of Oil and 
Gas Conservation (MBOGC) and Montana's Department of Environmental 
Quality, are closely involved in establishing operating requirements 
and mitigation measures to minimize or eliminate hazards associated 
with coalbed natural gas development. BLM and MBOGC review and approve 
Water Management Plans for each project in order to support the goal of 
developing coalbed natural gas in an environmentally sound manner.

                BUREAU OF LAND MANAGEMENT--FIRE FUNDING

    Question. Your budget request includes a $36 million increase for 
fire suppression activities. I support your desire to bolster this 
account to avoid the inefficient process of routinely borrowing against 
other Department accounts to offset suppression costs.
    Can you explain the projections the Department used to support this 
increase?
    Answer. The budget request for suppression operations assumes that 
2004 will be an average year for wildland fire activity. The request is 
based on the most recent 10-year average cost for fire suppression 
operations, as adjusted for inflation. For the 2004 request, the 10-
year period covers the years 1993 through 2002. The actual cost for 
fire suppression for each year was converted into 2002-comparable 
dollars, using the approved Gross Domestic Product non-Defense 
deflators as the basis for the adjustments. The inflation-adjusted 
costs were added together, and the sum was divided by ten to calculate 
the annual average of $195.3 million.
    Question. We have had numerous discussions within this 
Subcommittee, and in both the Energy and Natural Resources and Budget 
Committees, to address the problem of borrowing against other accounts 
to fight fires. This practice functionally crippled the U.S. Forest 
Service last year and caused some problems for Interior as well.
    Could you explain how the Department was impacted, and what steps 
have been taken to minimize the disruption to core programs?
    Answer. The impact of borrowing funds from other accounts to pay 
for wildland firefighting has not disrupted Interior operating 
programs. The Secretary of the Interior is authorized to draw on 
construction and land acquisition accounts with significant unobligated 
balances. Borrowing from these accounts has enabled Interior to avoid 
borrowing from operating accounts that could impede or disrupt on-the-
ground operational activities such as resource protection, park and 
refuge operations, and BIA school operations.
    The Departments of the Interior and Agriculture are in the process 
of developing a large fire cost reduction action plan. The plan will 
respond to Congressional direction included with the 2003 appropriation 
and will build upon previous reports by the National Academy of Public 
Administration and the National Association of State Foresters. It will 
address the roles of agency line officers and incident commanders as 
well as changes in wildfire situation analyses, financial management, 
and operational actions. We expect that the recommendations in the 
draft plan will result in operational savings that will result in 
savings to the taxpayer and a reduced need to rely on transfers from 
other accounts for emergency funding.

                      TRUST REFORM REORGANIZATION

    Question. Last year the Department proposed an organizational 
restructuring to handle the Department's Indian Trust responsibilities. 
This proposal met with concern by some in the tribal community and a 
robust consultation process was the result.
    Could you update the subcommittee on your current actions to 
organize the Department's trust reform responsibilities and give us a 
roadmap of what you feel are the next logical steps to be pursued by 
the Department?
    Answer. The new organizational structure for the BIA and OST 
provides a single executive sponsor for trust reform; enhance 
beneficiary services; ensure accountability; and emphasize Economic 
Development, Self-Governance and Self-Determination activities.
    Both BIA and OST are working aggressively to implement the 
reorganization. The Departmental Manual to formalize the reorganization 
was issued on April 21, 2003. OST and BIA are determining personnel 
selections for key management positions. OST has initiated recruitment 
of Trust Officers to be placed in, or in close proximity to, the BIA 
agencies with the highest level of trust activities and recurring trust 
income. BIA and OST have established a joint implementation 
coordination team that meets regularly to discuss issues related to 
implementing the reorganization as efficiently and effectively as 
possible.
    The reorganization focuses on the BIA and OST fiduciary 
responsibilities to tribal and individual Indian beneficiaries. The BIA 
will retain its responsibilities relating to land and natural resource 
management because of its demonstrated expertise in this area of the 
trust. OST will retain its financial trust asset management and 
statutory oversight duties, and expand its role to provide beneficiary 
representation in all aspects of fiduciary operations and oversight. 
OST's Trust Officers and Regional Trust Administrators will provide 
local presence to support beneficiary services and ensure the proper 
management of fiduciary trust assets.
    The reorganization of trust functions in the BIA and OST was 
developed after detailed analysis of the prior organization and a 
yearlong consultation process with tribal leaders. This was, perhaps, 
the most extensive consultation effort ever undertaken by the senior 
management level at the Department on any issue relating to Indian 
Country. Over 45 meetings with tribal leaders provided a range of 
proposals and recommendations. The new organization reflects a 
synthesis of the views heard during the consultation process. It will 
meet fiduciary trust responsibilities, be more accountable at every 
level, and operate with people trained in the principles of fiduciary 
trust management.
    The Department recently issued a Comprehensive Trust Management 
Plan to address trust reform. In addition to work outlined in the Plan 
to move forward on trust improvement initiatives, the Department is 
also actively engaged in the historical accounting for individual 
Indian account holders. Completion of a yearlong project to document 
trust business processes provides the Department with the information 
necessary to begin a major re-engineering task of these processes. The 
re-engineering or ``To-Be'' process as it is known is an integral part 
of the Comprehensive Trust management Plan.
    Question. Do you have any recent indication from the Court that 
moving forward with the reorganization is timely, or adequate to 
address the current problems?
    Answer. We have not received any response from the Court regarding 
the reorganization.

                    FISH AND WILDLIFE GRANT PROGRAMS

    Question. The Department has proposed two new grant programs over 
the last two years called the Landowner Incentive Program and the 
Private Stewardship Grants Program. There were some difficulties 
establishing eligibility requirements and criteria for allocating these 
funds.
    What is the status of these two programs now? Are funds getting out 
the door?
    Answer. The Secretary announced the approval of State Landowner 
Incentive Program proposals from 42 States in the amount of $34.8 
million on February 25, 2003. Funds will be made available through 
grants to these States once they submit their complete package of grant 
agreement papers and the Service signs them.
    Of the 42 States, 39 have programs approved for Tier 1 grants 
(emphasis on building a program infrastructure), and 22 are approved 
for Tier 2 grants (on-the-ground conservation work). As of May 28, four 
Tier 1 LIP grants were signed and are now active in the States of 
Idaho, Minnesota, Montana, and Nebraska. A Tier 2 grant is active in 
Minnesota.
    The Service has received additional grant documentation from eight 
other States for Tier 1 grants (Arkansas, Delaware, Maine, New Jersey, 
South Carolina, Texas, Washington, and Wisconsin), and two States for 
Tier 2 grants (Nebraska and South Carolina). The Service anticipates 
these additional 10 programs will be awarded grants in June. Most of 
the remaining States are nearing the end of their State fiscal years 
(June 30), and the Service expects most will establish grants for their 
approved programs later in the summer.
    The grant awards for the Private Stewardship Grants Program were 
announced on May 28, 2003. More than $9.4 million will be awarded under 
this innovative program to individuals and groups to undertake 
conservation projects on private lands for endangered, threatened, and 
other at-risk species. The Fish and Wildlife Service spent additional 
time working with States and potential grant applicants to help them 
understand the new program and its requirements. Project proposals were 
originally due to the Service's Regional Offices by December 1, 2002, 
but after many applicants requested more time, the due date was 
extended to January 15, 2003, providing the public more than 100 days 
to develop and submit project proposals. We do not anticipate having 
such a long application period this year, and anticipate being able to 
award grants at an earlier date in the spring of 2004.
    Question. How many projects have been funded thus far?
    Answer. Of the 42 States approved for Landowner Incentive Program 
grants to fund their programs, the States of Idaho, Minnesota, Montana, 
and Nebraska have Tier 1 grants in place; Nebraska and South Carolina 
have Tier 2 grants. Tier 1 grants are small (up to $180,000), and 
emphasize agency infrastructure and capability building. Most on-the-
ground conservation projects will be conducted in the 22 States 
approved for the larger Tier 2 grants. The Service will act to award 
grants for these approved programs once it receives the State 
documents. We awarded approximately $9.4 million to about 113 projects 
in some 42 states ranging from Alaska to New York.
    Question. Will the Committee have the track record of 
accomplishments that we can evaluate how to fund these programs in 
fiscal year 2004?
    Answer. While some Landowner Incentive Program projects will be 
initiated in the States this summer, the Service will not receive the 
first annual performance reports for these grants until the summer or 
fall of 2004. These reports will describe accomplishments and are due 
after the first year of the project period. As a point of interest, 
there are 28 States and 6 Territories that did not receive any Tier 2 
conservation project funding in fiscal year 2003. Many of these are 
eager to gain initial funding to start projects with private landowners 
in their jurisdictions.
    The Fish and Wildlife Service will be able to provide the Committee 
with a list of projects selected for funding through the Private 
Stewardship Grants Program including information on the objectives to 
be reached through the funding of each project. At a later date, a full 
analysis of the accomplishments of implementing these projects under 
the Private Stewardship Grants Program can be provided.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

                       ALASKA CONVEYANCE PROGRAM

    Question. An issue of concern to myself and Senator Lisa Murkowski 
is the pace of the Bureau of Land Management's Alaska Conveyance 
program. As you know, the BLM was tasked with completing work on Native 
allotments and land selections mandated by both the Alaska Statehood 
Act of 1959 and the Alaska Native Claims Settlement Act of 1971. That 
task has not been completed.
    This delay has severely impacted the ability of the State of Alaska 
and our Native groups from developing their resources and furthering 
the economic development of the State. Language included in the fiscal 
year 2003 Omnibus Appropriations Bill directs the Bureau to develop a 
plan to ensure that allotments and conveyances are completed by 2009. I 
would like to get your commitment that the BLM will abide by its 
obligations and complete the land conveyance program by 2009.
    I know that Senator Murkowski is committed to assisting you and the 
BLM in this effort through her membership on the Energy and Natural 
Resources Committee, and I commit to providing the BLM the resources it 
needs to develop this plan.
    Answer. BLM is developing the plan required in the 2003 Omnibus 
Appropriations bill, and is exploring options for improving the 
conveyance process. A Senate hearing on this issue is scheduled to take 
place in Anchorage on August 6, 2003.

            ALASKA NATIONAL INTEREST LANDS CONSERVATION ACT

    Question. Another issue is the National Park Service's proposed 
regulations concerning the issuance and administration of commercial 
use authorizations in national parks. As expressed to you in a February 
6, 2003 letter from Senator Murkowski, Congressman Don Young, and 
myself, these proposed regulations fail to comply with the Alaska 
National Interest Lands Conservation Act of 1980. The 1980 law is the 
controlling authority on public lands in Alaska and any Park Service 
regulations must conform with this law. I would like your assurance 
that the Department and the Park Service are committed to working with 
the State of Alaska, interested parties, and Alaska Native Groups in 
developing regulations that are consistent with the 1980 law.
    Answer. The draft regulations were published for comment in the 
Federal Register (Volume 67, Number 229) on November 27, 2002 as 36 CFR 
Part 52. Though the draft regulations do not reference the Alaska 
National Interest Lands Conservation Act of 1980 (ANILCA), it has 
always been our understanding that they must conform to ANILCA as they 
are applied in Alaska. The draft regulations implement Section 418 of 
the National Park Service Concessions Management Improvement Act of 
1998 (16 USC 5901 et seq.). Section 415 (c) of the same law states:

    ``ANILCA.--Nothing in this title amends, supersedes, or otherwise 
affects any provision of the Alaska National Interest Lands 
Conservation Act (16 U.S.C. 3101 et seq.) relating to revenue-producing 
visitor services.''

    Comments were received from organized groups, their members, 
individual operators, and from within the NPS. The National Park 
Service intends to establish a multi-disciplinary work group under the 
umbrella of the Secretary's Concession Management Advisory Board 
(Board), covered under the Federal Advisory Committee Act, to review 
the comments and develop a second draft rule. The work group will 
consist of interagency personnel, representatives of private sector 
interested parties including affected commercial operators in Alaska, 
and designated officials of the Board. This approach will allow for 
consideration of the business need for a predictable, stable platform 
while ensuring consistency with the preservation and conservation of 
park resources. Recommendations of the work group will roll-up to the 
full Advisory Board in a public meeting and this consultation will 
occur prior to drafting the next published rule.

                          DENALI NATIONAL PARK

    Question. Additionally, Denali National Park recently issued its 
draft backcountry management plan. I am concerned that some of the 
alternatives, if implemented, would restrict public access to our 
parks. Access to public lands is an issue I have struggled to protect 
first as a Solicitor in your Department, in the Alaska State House, and 
in my 34 years in the Senate. I will oppose any plan which imposes 
unnecessary limits on the public's right to visit their parks.
    I understand that Denali's Superintendent and his staff have held 
public hearings and meetings on this management plan. I encourage these 
efforts in order to ensure that the final plan balances the protection 
of our natural resources with the public's right to access for 
recreational, economic, and social purposes.
    Answer. Public enjoyment of Denali National Park and Preserve is 
extremely important. The National Park Service emphasizes this point in 
the first chapter of the park's Draft Backcountry Management Plan. One 
of the primary objectives of the new plan is to: ``provide for the 
public's maximum freedom of use and enjoyment of the park's backcountry 
and wilderness in a manner that is consistent with park purposes and 
the protection of park resources and values.'' Consistent with this 
objective, the National Park Service does not intend to impose 
unnecessary limits on the public's right to visit or enjoy their park.
    Meeting the Congressional direction to provide for enjoyment while 
at the same time protecting Denali National Park and Preserve's 
resources and values, requires the National Park Service to manage 
access and use. This management is not intended to unnecessarily 
restrict the public's right of access. Quite the opposite, careful 
implementation of the alternatives in the draft plan will provide for 
more visitor access, and will accommodate greater numbers of visitors 
than are accommodated today under current management strategies. The 
National Park Service will carefully evaluate, and appropriately 
incorporate, all of the public comments received on the draft plan to 
ensure that the final plan balances the protection of our natural 
resources with the public's right to access for recreational, economic, 
and social purposes.
    The alternatives in the Draft Backcountry Management Plan were 
developed in collaboration with the public over the past four years. 
The National Park Service first held a series of public scoping 
meetings in 1999 in Anchorage, Fairbanks, Talkeetna/Trapper Creek, and 
McKinley Village to define issues and impact topics to address in the 
plan. Approximately 150 people attended the meetings and the NPS 
received 65 written comments. The NPS next sent a preliminary 
alternatives newsletter to 2,000 addresses on the park mailing list in 
January 2001, outlining ideas for alternatives. This newsletter was 
followed up with open house meetings in Anchorage, Fairbanks, 
Talkeetna/Trapper Creek, Cantwell, and Healy. After receiving comments 
on the newsletter and in the meetings, the NPS continued to meet 
frequently and solicit feedback from interest groups representing such 
diverse park constituencies as aviation, snow machine users, 
mountaineering guides, conservation organizations, and the State of 
Alaska. Information from these ongoing contacts shaped the alternatives 
in the draft plan printed in February 2003.
    After publishing the draft plan, the National Park Service held six 
informational workshops in Fairbanks, Anchorage, Wasilla, Talkeetna/
Trapper Creek, Cantwell, and Healy during March 2003 to help the public 
understand the draft plan and its implications. These workshops were 
followed in April by public hearings in each of those communities and 
in Lake Minchumina. In addition, all individuals who had previously 
expressed interest were personally notified by mail and telephone of 
the draft plan's release.
    Opportunities for public comment were available through May 30, 
2003 by mail, e-mail, and directly through the park web site as well as 
at the public hearings. Park staff will continue contacts with 
interested groups and individuals as they produce the final plan.

                          SPRUCE BARK BEETLES

    Question. I am pleased with the proactive stance the administration 
has taken in the area of wildfire prevention and suppression through 
the Healthy Forests Initiative. In recent years, we have witnessed 
catastrophic fires, which burned over 7.1 million acres, affecting 
several regions in the United States, including Alaska.
    In Alaska, we have a particular problem with spruce bark beetles, 
which have decimated spruce forests in the Kenai Peninsula area along 
the Kachemak Bay Watershed and the Copper River Basin near Wrangell-St. 
Elias National Park and Preserve. The spruce bark beetle problem along 
with an extremely dry winter season in Alaska raises serious concerns 
for this coming fire season. I hope that your efforts in fire 
prevention and suppression will include funding to address Alaska's 
spruce bark beetle problem.
    Answer. The State of Alaska is currently undergoing one of the 
largest spruce bark beetle infestations ever observed. As much as four 
million acres of forestlands, across all ownerships, have been affected 
during the last 15 years, of which only 100,000 acres are managed by 
the BLM. Only 10,000 acres of the infested lands managed by the BLM are 
accessible and could be harvested with timber sales. Although some of 
this infected timber has been offered for sale by BLM, the sales have 
not sold due to poor market conditions. The majority of the timber has 
deteriorated to the point where it has no value as a commercial 
product.
    The Bureau recognizes that the dry winter and the build-up of fuels 
resulting from this beetle outbreak creates some formidable challenges 
for this fire season and for years to come. The Bureau and its partners 
are prepared to meet this challenge and protect the communities and 
resources in Alaska. The BLM is currently working with rural 
communities in Alaska to reduce the threat of wildfire, including 
providing financial and technical support to the communities and their 
fire departments, collaboratively identifying conditions and planning 
actions to reduce those threats, and reducing hazardous fuels within 
the wildland-urban interface. Where spruce bark beetles have killed 
timber in these areas, BLM will continue to try to find markets for the 
material as it is removed during fuel reduction treatments.

                    FEDERALLY-OWNED LAND STATISTICS

    Question. As you know, we have begun the fiscal year 2004 
appropriations process. It has come to my attention that the Committee 
does not have the most current data for public lands being administered 
by the Department of the Interior. In order to appropriately allocate 
scarce resources toward the management of the public lands, I request 
that the Department provide the Committee with statistics on Federally-
owned land by agency in each State and territory by acreage and 
percentage of State total area. These statistics should also include 
the total wilderness areas within each State.
    Answer. The Department will compile this information and transmit 
it to the Subcommittee under separate cover.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                   CROWNPOINT INSTITUTE OF TECHNOLOGY

    Question. The Crownpoint Institute of Technology (CIT) is one of 
only two tribal vocational-technical schools in the country. CIT plays 
a critical role in training Native American students for employment. 
The school has a successful program in which an average of 87 percent 
of its students is placed in jobs upon graduation. A successful post-
secondary vocational-technical school such as CIT is a tremendous 
resource for Native Americans.
    Unfortunately, the President's fiscal year 2004 budget request does 
not include specific funding for CIT.
    Given the important and specific roles the two vocational/technical 
schools play on educating young Native Americans, why has specific 
funding for CIT been deleted?
    Answer. One of the Department's strategic goals is to support 
development of quality communities for tribes by improving education. 
An important component of this goal is supporting higher education to 
provide students with the knowledge and skills they need to become 
successfully employed. The Bureau currently operates two fully 
accredited post-secondary schools, Southwestern Indian Polytechnic 
Institute (SIPI) and Haskell Indian Nations University, and provides 
funding for 25 Tribally controlled colleges and universities.
    CIT is not bureau operated nor is it eligible for funding under the 
authority of the Tribally Controlled Community College or Universities 
Assistance Act, as amended. CIT is eligible for funding under the Carl 
D. Perkins Act, as amended, and receives funding under authority of the 
Act through a grant program administered by the Department of 
Education. The Department of Education provided $6.955 million under 
this authority to post-secondary schools in fiscal year 2003, of which 
CIT received $3.8 million.
    Question. What considerations would you take into account when 
determining funding allocations for schools like CIT?
    Answer. The Bureau takes into consideration education funding 
priorities for the existing K-12 programs, eligible TCCCs, and Bureau 
post-secondary schools. While CIT is meeting an important and unique 
need for those students who attend it, the Bureau takes into 
consideration authorizing legislation. Currently, there is no statutory 
authorization for the Bureau to fund schools like CIT, which is neither 
Bureau operated nor eligible for funding under the authority of the 
Tribally Controlled Community College or Universities Assistance Act, 
as amended (Public Law 95-471.). Public Law 95-471 permits each Tribe 
to apply for operating grants for a single TCCC. CIT is a Navajo 
school. CIT is ineligible for TCCC funding because another Navajo 
school, Dine College, currently receives funding under authority of 
Public Law 95-471.
    CIT is eligible for funding under the Carl D. Perkins Act, as 
amended, and receives funding under authority of the Act through a 
grant program administered by the Department of Education. The 
Department of Education provided $6.955 million under this authority to 
post-secondary schools in fiscal year 2003, of which CIT received $3.8 
million.

                       INDIAN SCHOOL CONSTRUCTION

    Question. Secure, modern, and pleasant school facilities are 
critical to the education of all students. To that end, I am pleased to 
see that President Bush sustains the current level of commitment to 
replace deteriorated BIA schools through new construction with his 
request of $292.6 million. These funds are critically needed to 
continue to address the backlog for repairs, renovation, and 
replacement for all federally owned and operated BIA elementary and 
secondary schools.
    While I am pleased with the overall request, I am concerned that 
the $131.4 million proposed for the replacement of schools does not 
specify the dollar amount going to each project. New Mexico has five 
schools on the replacement list for fiscal year 2004--Isleta Elementary 
School; Mescalero Apache Elementary School; Pueblo Pintado Community 
School; Navajo Prep School, Phase II; and Wingate High School, Phase 
II.
    Specifically, could you address my concerns that the failure to 
delineate specific funds for the listed schools may lead to unnecessary 
confusion, delay, and at worst, failure to provide adequate funding for 
the projects?
    Answer. During formulation of the 2004 Budget, the Administration 
began using the Program Assessment Rating Tool (PART) to identify 
strengths and weaknesses of programs and to inform budget, management, 
and policy activities regarding recommendations. The process generated 
extensive information on program effectiveness and accountability 
including the need for additional performance measures. One of the 
principal PART findings for Indian School Construction program was that 
it had limited flexibility to adjust funds appropriated to a specific 
project when there are delays or changes due to planning or design 
which impact the original cost estimate for the project. The fiscal 
year 2004 President's Budget reflects a policy change to no longer 
provide cost estimates for individual projects for replacement schools 
or facilities improvement and repair until the planning documents and 
design for the projects are developed to the point where adequate 
information is available to make a reasonably accurate cost estimate. 
This will greatly improve accountability for program funding.
    Question. Generally, would you please describe the efforts of the 
Department of the Interior to replace aging structures that pose a 
health and safety threat and make learning difficult?
    Answer. The Bureau has undertaken an intense effort on the 
President's commitment to reduce the maintenance backlog and has 
developed a five-year Maintenance and Construction Plan to address 
aging structures. Each fiscal year plan includes the projects of 
greatest need in priority order with special focus first on critical 
health and safety. The Bureau has also developed a Facilities 
Management Information System (FMIS) to improve the management of 
deferred maintenance, major facilities improvement and repair, and 
replacement school construction projects. The system effectively tracks 
improvements and facility conditions associated with health, safety, 
disability access, classroom size, computer, and communications 
technology space. The data in FMIS is used to determine funding for the 
highest priority items in the maintenance backlog of health and safety 
deficiencies.

             SANTA FE INDIAN SCHOOL RECONSTRUCTION FUNDING

    Question. The President requested, and the Congress approved, $23.2 
million for Santa Fe Indian School in fiscal year 2002, and another 
$15.3 million in fiscal year 2003. In addition, the Santa Fe Indian 
School requires $9.2 million to complete its replacement project. There 
was to be a phase 3 to the project that included a gym and health 
facility, an administrative building, and site modifications. The Santa 
Fe Indian School was notified that phase 3 would not be funded and that 
no funding would be in the fiscal year 2004 budget as anticipated.
    Considering the stated goals of the President's Indian Education 
Initiative and No Child Left Behind programs, could you explain why the 
budget request did not include funding to complete the Santa Fe Indian 
School replacement project as planned?
    Answer. Schools compete for ranking on the BIA priority list for 
replacement school construction. Higher rankings are given to schools 
with critical health and safety needs and for which current facility 
program space is insufficient for current approved education program 
offerings.
    When evaluating the Santa Fe Indian School Phase 3 construction 
project proposal, it was determined that Santa Fe Indian School is 
located within walking distance of a U.S. Indian Public Health Service 
hospital, an administrative building exists on site, the status of the 
current gym does not warrant complete replacement, and the needed site 
work was for sidewalk, curb, and gutter improvements. Based on this 
assessment, other schools more effectively competed for school 
replacement construction funds.

            SOUTHWESTERN INDIAN POLYTECHNIC INSTITUTE (SIPI)

    Question. The Southwestern Indian Polytechnic Institute (SIPI) in 
Albuquerque, New Mexico is a national vocational-technical school that 
enrolls approximately 750 students representing 100 Indian tribes from 
across the nation. SIPI provides Indian students with post-secondary 
educational opportunities and technical job skills.
    The Administration's fiscal year 2004 budget request of $5.593 
million for the post-secondary schools of SIPI and the Haskell Indian 
Nations University in Kansas does not reflect the funding needed to 
implement the new funding formula that would bring parity in funding to 
the two institutions. SIPI and Haskell collaborated on the new formula, 
which was enacted in the Omnibus Appropriations bill for fiscal year 
2000. The formula language was again included in the 2001 
Appropriations Act to direct the allocation of increased operating 
funds for the unmet needs identified for both SIPI and Haskell.
    The BIA has now adopted the SIPI/Haskell funding formula as its 
model for all post-secondary school funding proposals, yet it has never 
been implemented. SIPI would require a total of $10.641 million in 
fiscal year 2004 to implement the new funding formula. There are 
concerns that without this funding the SIPI will be unable to fill key 
faculty positions, update its library, maintain the college's 
information infrastructure system, meet new educational demands, and 
strengthen student support services.
    Why has the BIA-adopted funding formula not been fully funded?
    Answer. To meet the needs of each of the post-secondary 
institutions, BIA has allocated funds proportional to their enrollment. 
The formula that was developed by SIPI and Haskell was to be applied to 
any increases in funding levels.
    Unfortunately, the Department of the Interior is faced with making 
difficult choices in setting priorities for funding for the post-
secondary institutions. Funding has been relatively flat for the past 
several years. One of the Department's strategic goals is to support 
development of quality communities for tribes by improving education. 
In the 2004 budget, funding increases were targeted to the primary and 
secondary education levels--areas of higher priority to the Tribes on a 
nationwide basis.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett

                OIL AND GAS PERMITTING ON FEDERAL LANDS

    Question. A recent report by the Independent Petroleum Association 
of Mountain States shows that companies looking for oil and gas on 
Federal leases contend with increasing uncertainties and, in many 
cases, extreme delays in trying to acquire the necessary permits to 
conduct activities. Using BLM's own data, the average APD now takes on 
average 137 days to be approved and in some cases have taken over 365 
days to approve.
    If the statute states that a typical APD should be approved within 
30 days, and the average approval time is 107 days beyond that, please 
identify the primary obstacles that exist in approving an APD in a 
timely manner.
    Answer. There is no statutory requirement that BLM approve an APD 
within 30 days. APD processing times are prescribed in BLM's own 
regulations (43CFR 3162 and Onshore Oil and Gas Order#1 issued under 
43CFR 3164). The BLM has promulgated regulations that state:
    ``III D. Processing Time Frames. The following table summarizes the 
major time frames involved in processing most APD's:

                 APPLICATION FOR PERMIT TO DRILL OPTION
------------------------------------------------------------------------
           Action item                              Days
------------------------------------------------------------------------
Onsite inspection................  Within 15 days after receipt of the
                                    APD.
Requirements to be imposed when    Developed onsite, or within 5 working
 APD is approved.                   days thereafter.
Complete processing of APD.......  Within 30 days of the APD's receipt,
                                    provided that it is technically and
                                    administratively complete at the end
                                    of the 30-day period (includes the
                                    above 15-day and 5-day periods).
------------------------------------------------------------------------


                        NOTICE OF STAKING OPTION
------------------------------------------------------------------------
           Action items                             Days
------------------------------------------------------------------------
Onsite inspection................  Within 15 days after receipt of the
                                    NOS.
Requirements for inclusion in APD  Furnished onsite or within 5 working
                                    days thereafter.
Complete processing of APD.......  Within 10 days of the APD's receipt,
                                    provided that it is technically and
                                    administratively complete at the end
                                    of the 10-day period.
------------------------------------------------------------------------

    The above time frames, together, comprise the total period during 
which the BLM anticipates it will be able to process approximately 90 
percent of all APD's. However, the 30 days may not run consecutively . 
. . .''

    BLM has self imposed a 30 day time frame for the processing of most 
APDs. As stated in BLM's Onshore Oil and Gas Order#1, these 30 days may 
not be consecutive. If an incomplete APD is received, the Bureau must 
wait to complete the processing of the permit until the operator 
submits all required information. The BLM does not include the days 
between the initial receipt of the application and the day when all 
required information is submitted in the 30 day processing time frame, 
according to Onshore Oil and Gas Order#1. Since fiscal year 2000, the 
Bureau has approved 38 percent of the APDs within the 30 day time 
frame. Although the BLM is not currently meeting its objective of 90 
percent, it continues to explore alternatives for increasing this 
percentage.
    The BLM is revising Onshore Oil and Gas Order#1 to clarify the 
requirements of a complete application. This clarification should 
reduce the number of incomplete APDs submitted and decrease overall 
processing times.
    Other factors that may extend the processing times beyond the 30 
days include the need to: (1) complete any supplemental NEPA analysis, 
(2) consult with other surface managing agencies (primarily Forest 
Service), (3) obtain any necessary cultural clearances, and (4) 
maintain staffing support for ADP processing.
    Applications for oil and gas development that are proposed over 
large acreages may require the development of an Environmental Impact 
Statement to fulfill National Environmental Policy Act requirements. 
For example, the Bureau spent two years completing the EIS that 
examines the impacts of coalbed natural gas development in the Powder 
River Basin. Some BLM Field Offices had not been accepting any new APDs 
for coalbed natural gas, due to the existing large backlog of APDs. Now 
that the Powder River Basin EIS is completed, Field Offices will be 
able to begin processing the backlogged APDs and accept new 
applications. The processing of APDs will be extended any time a major 
field development EIS is required.
    In situations where BLM is required to approve surface disturbance 
for another surface-management agency, such as the Forest Service, 
additional time may be needed to allow BLM to coordinate with the other 
agency. BLM is working with other surface-management agencies to 
improve coordination and consistency and reduce the time it takes to 
complete the APD process on non-BLM lands.
    Cultural clearances can also extend time frame for APD processing. 
If a cultural clearance is required, and a cultural clearance report 
has not been completed prior to submission of the APD, delays can be 
expected. It typically takes a minimum of 30 days from submission of a 
cultural clearance report to the State Historic Preservation Officer to 
get concurrence that historic and cultural resources are being 
protected. Onshore Oil and Gas Order#1 encourages operators to check 
with the BLM at least 15 days before submitting an APD or NOS to 
determine if a cultural clearance will be required.
    The Federal Onshore Oil and Gas Leasing Reform Act of 1987 requires 
BLM to post all APDs for at least 30 days prior to approval. The 
process could be extended as a result of this requirement.
    Due to unanticipated changes in demand in the last few years, 
staffing has not kept pace with workload in some BLM Field Offices. 
Additional funding provided in 2002 and 2003 budgets and continued in 
the President's Budget for fiscal year 2004 funds increased staffing.
    Question. What steps can be taken administratively to improve this 
process? What realistic legislative remedies might exist that would 
provide additional resources to improving the permitting process?
    Answer. The BLM is taking several steps to improve the APD 
processing time frames. On April 14, 2003, the BLM Washington Office 
issued five Instruction Memorandums (IMs) on APD process improvements. 
These IMs cover Conditions of Approval, Cultural Resources, revision of 
Onshore Oil and Gas Order No.1, Comprehensive Strategies, and revision 
of the Oil and Gas ``Gold Book''.
    The IM on Conditions of Approval (IM 2003-146) directed BLM field 
offices to supply the Washington Office with copies of conditions of 
approval currently being used. The Washington Office is developing 
standard conditions of approval and guidance on how to develop 
reasonable and enforceable conditions of approval.
    The IM on Cultural Resources (IM 2003-147) identifies some ``best 
practices'' being used in some BLM field offices concerning cultural 
resources. All field offices are instructed to use these ``best 
practices'' to help streamline the APD processing time frames.
    The IM on Revision of Onshore Oil and Gas Order No. 1 (IM 2003-151) 
and the IM on Revision of the Oil and Gas ``Gold Book'' (IM 2003-153) 
initiates the rewriting of two references used by oil and gas operators 
on standards concerning surface use for oil and gas operations. These 
revisions will provide oil and gas applicants with improved direction 
on application requirements.
    The IM on Comprehensive Strategies (IM 2003-152) outlines ``best 
practices'' strategies that field offices can implement to streamline 
the APD processing time.
    Currently, the BLM does not require any legislative remedies to 
improve APD processing. As the BLM progresses with APD streamlining 
efforts, Congress will be notified if new legislation is determined to 
be necessary.
    Question. Finally, please provide the Committee with a recommended 
funding level that would be expected in order to bring the fiscal 
resources in line with the demands in the field.
    Answer. The 2004 President's Budget request includes an increase of 
$350,000 to bring the fiscal resources in line with current APD demands 
and $2.5 million for inspections, enforcement, and monitoring 
associated with this level of energy development.

               FEDERAL PERMIT STREAMLINING PILOT PROJECT

    Question. A pilot project has been suggested as a means of helping 
to streamline the Federal permit process for energy related projects. 
While it does not specifically address APD backlogs, it is my 
understanding that a pilot project has been included in the Senate 
Energy Committee's proposed energy bill.
    Please comment on the proposed pilot program to streamline federal 
permit processing currently under consideration before Congress.
    Answer. The proposed program in Section 122 of the Senate Energy 
Bill would establish a Federal Permit Streamlining Pilot Project. This 
proposal has also been known as the ``Tiger Team Proposal''. Section 
122 calls for Federal agencies to assign on a non-reimbursable basis 
employees to serve under BLM Field Managers in six offices. These six 
teams would work on proposed energy projects, planning and 
environmental analyses. We have several comments on this section.
    Governors should be encouraged to support pilot projects in their 
respective States by signing the Memorandum of Understanding that 
defines the arrangement in the pilot States.
    Currently, the Energy Bill proposes that six offices participate in 
the Federal Permit Streamlining Pilot Project. The Bureau recommends 
that the pilot project be implemented in only one office, Buffalo, 
Wyoming. This team would work on reducing the backlog in the Powder 
River Basin. Once the team has completed that task, it would then work 
in other offices to reduce the APD backlog.
    Interagency teams should include personnel from the Bureau of 
Indian Affairs, U.S. Fish and Wildlife Service, or other agencies 
within the Department of Interior, and the USDA Forest Service, that 
the BLM is required to contact as part of the NEPA process for oil and 
gas operations.
    Question. What impact, if any, might this pilot program have upon 
addressing the issue of the APD backlog?
    Answer. Initially this pilot program will have little effect on 
handling the existing APD backlog, because most of the backlog of 
permit processing was caused by issues that are currently being 
addressed (e.g. Powder River Basin EIS), or are due to the submission 
of incomplete applications by operators. In the future, the pilot 
program could resolve or prevent backlogs from occurring.
    Question. Please comment on the feasibility of developing a similar 
pilot program specifically for Federal oil and gas permitting within 
BLM to address APD permit backlogs.
    Answer. The BLM has been looking into the idea of a pilot program 
where a team of specialists within the BLM would be available to Field 
Offices to assist with processing oil and gas operations backlogs 
related to Federal permitting. The team could be centrally located, or 
could be dispersed in several field offices, but when a Field Office 
requires assistance, the team would be temporarily relocated to that 
office. It is believed that this approach would enable the BLM to 
accelerate the processing time of APDs and other related oil and gas 
applications.
    Question. Would such a program be effective in reducing the 
backlog, and providing greater predictability in the permitting 
process? Is it feasible that such a program might be put together in a 
timely manner and begin to take effect within weeks of being funded by 
Congress?
    Answer. Yes, it is believed that such an approach could reduce or 
eliminate the present backlog of APDs within two years, though the 
effects of new demand during that two-year period cannot be estimated.
    Question. Has BLM taken steps to develop a ``best practices'' 
program for BLM Field Offices to share information, processes, and 
expertise in the permitting process? If so, what is the status of the 
program?
    Answer. BLM has been using ``best practices'' of Field Offices to 
improve BLM management of the public lands nationwide. In the past, the 
BLM did not effectively highlight ``best practices'' to other Field 
Offices. The BLM is working to improve the dissemination of information 
concerning ``best practices''.

                         MOJAVE DESERT TORTOISE

    Question. The recent GAO report regarding the efforts to recover 
the Mojave desert tortoise stated that at least $100 million has been 
spent since its first listing. However, the GAO was unable to identify 
any Fish and Wildlife Service documentation regarding its population 
trends or whether any of that money has been effective in recovering 
the species.
    What is the Department's response to the report and what is being 
done to provide some direction to this extraordinary amount that is 
being spent on the species' recovery?
    Anwer. The Department concurs with the recommendations in GAO's 
final report, Research Strategy and Long-term Monitoring Needed for the 
Mojave Desert Tortoise Recovery Program. Expenditures for the desert 
tortoise include those for habitat acquisition, research, surveys, plan 
development, habitat enhancement, and agency staff time. Habitat 
acquisition, the largest expenditure category, has contributed 
significantly to the protection of biologically important areas 
necessary to achieve recovery objectives. Although recovery actions 
have been implemented, tortoise habitat and populations may not respond 
in a measurable way for several to many years afterward. We acknowledge 
that information on the status of tortoise populations and habitats 
affected by land management actions is limited; however, collection of 
population trend data is in progress under the direction and oversight 
of the Service. We have been working with many partners and 
stakeholders to establish a collaborative process for implementing 
recovery actions through a science-based adaptive management approach 
that all interested parties can embrace. The Desert Management 
Oversight Group provides a structure for the implementation of recovery 
and research priorities, and the Service has completed a more effective 
expenditures reporting system for the next fiscal year.
    Question. Many restrictions have arisen as a result of the desert 
tortoise, including grazing reductions and development restrictions. 
This is a burden that falls heavily upon the local communities.
    Answer. The Service and other federal agencies have employed 
several tools to implement the Endangered Species Act while 
accommodating existing land use practices as much as possible. Regional 
habitat conservation plans have been implemented in Nevada and Utah to 
allow development and facilitate recovery of the species with active 
community involvement. Federal agencies have purchased cattle grazing 
allotments from willing sellers and worked with local groups to reduce 
the impacts of activities on lands with tortoise habitat. We are 
assessing further options to conserve the desert tortoise while 
minimizing economic impacts. In January 2003, the Service appointed the 
Recovery Plan Assessment Committee and initiated reassessment of the 
1994 Recovery Plan. During the reassessment process, we will evaluate 
new information on the status and conservation needs of the tortoise, 
and ensure that research is applied towards management needs as 
recommended by the GAO.
    Question. What is being done on the federal end by the Service to 
set goals and track the population trends and recovery of the species 
so that at some point in the future the species might recover and be 
[de]listed?
    Answer. The Service recently met with stakeholder groups and 
federal, state, and local partners to discuss development of a recovery 
strategy and direction for the revised desert tortoise recovery plan. 
Workshops are being held to address issues such as disease, predation, 
and population monitoring. The Recovery Plan Assessment Committee will 
evaluate the delisting criteria and consider the appropriateness of 
designating the existing recovery units as distinct population 
segments. If designated as such, any given distinct population segments 
may be delisted independently by achieving its stated recovery 
objectives. Development of a statistically valid monitoring program for 
a wide-ranging species that occurs underground most of the year has 
proved to be challenging. However, we are pursuing implementation of a 
line distance sampling technique to obtain statistically valid 
population data and track population trends across the range of the 
species.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan
    Question. The Administration's fiscal year 2004 budget request for 
the Payment-in-Lieu-of-Taxes program (PILT) is $200 million. This 
amount is $18.5 million below the fiscal year 2003 enacted level, a cut 
of 8.5 percent. Why has the administration sought to cut this program? 
What was the Department's request for the PILT program to the Office of 
Management and Budget? How much will North Dakota receive under the 
fiscal year 2003 enacted level of $218.5 million? How much would North 
Dakota receive under the President's budget request of $200 million?
    Answer. Although the fiscal year 2004 President's Budget request 
for PILT of $200 million is $18.5 million below the fiscal year 2003 
enacted level, it is $35 million more than the fiscal year 2003 request 
of $165 million. The Department's request to OMB is part of the 
Administration's pre-decisional budget process and is therefore not 
subject to release. Under the fiscal year 2003 enacted level of $218.5 
million, North Dakota will receive an estimated $1 million in PILT 
payments. Under the President's budget request of $200 million, North 
Dakota would receive an estimated $800,000.
    Question. The Department of the Interior has indicated that an 
additional $2 million is needed in fiscal year 2003 to pay for court-
ordered endangered species listing actions. While the Department has 
provided the Committee with documentation of the shortfall in listing 
funding, no formal request has been made to bridge this gap. Does the 
Department have a solution to this problem?
    Answer. The White House formally requested that the Congress adopt 
a technical amendment to raise the cap for listing from $9 million to 
$11 million and the sub-cap for critical habitat from $6 million to $8 
million. If this is approved, the Department intends to ask the 
Committee's approval for a reprogramming of $2 million in funds from 
other endangered species program elements to listing. This will fund 
our fiscal year 2003 listing shortfall. In addition, the President's 
budget contains an increase in the listing budget of about $3.3 
million--which includes an increase of $3.8 million for critical 
habitat for already listed species and a decrease for other listing 
activities of $600,000.

                          SUBCOMMITTEE RECESS

    Senator Burns. Thank you all very much. The subcommittee 
will stand in recess to reconvene at 9:30 a.m., Thursday, May 
22, in room SD-124. At that time we will hear testimony from 
the Honorable Spencer Abraham, Secretary, Department of Energy.
    [Whereupon, at 11:09 a.m., Thursday, April 10, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
May 22.]

</pre></body></html>
